No. 20IN THE

Supreme Court of the United States
PAUL RODRIGUEZ, ROCKY CHAVEZ, LEAGUE OF UNITED
LATIN AMERICAN CITIZENS, & CALIFORNIA LEAGUE OF
UNITED LATIN AMERICAN CITIZENS,
Petitioners,
v.
GAVIN NEWSOM, GOVERNOR OF CALIFORNIA, & JAMES
SCHWAB, ACTING SECRETARY OF STATE OF CALIFORNIA, IN
THEIR OFFICIAL CAPACITIES,
Respondents.
On Petition for Writ of Certiorari to the
Ninth Circuit Court of Appeals

PETITION FOR A WRIT OF CERTIORARI
James P. Denvir III
BOIES SCHILLER FLEXNER LLP

1401 New York Ave., NW
Washington, DC 20005
(202) 237-2727
jdenvir@bsfllp.com

David Boies
Counsel of Record
BOIES SCHILLER FLEXNER LLP

333 Main Street
Armonk, NY 10504
(914) 749-8200
dboies@bsfllp.com

Luis Roberto Vera Jr.
LUIS VERA JR. & ASSOCIATES

1325 Riverview Towers
111 Soledad
San Antonio, TX 78205
(210) 225-3300
lrvlaw@sbcglobal.net

L. Lawrence Lessig
EQUAL CITIZENS

12 Eliot Street
Cambridge, MA 02138
(617) 496-1124
lessig@law.harvard.edu

Attorneys for Petitioners

i
QUESTIONS PRESENTED
Petitioners are two California Republicans and two
non-profit organizations who have alleged their votes
for President and Vice President are diluted by
California’s use of the so-called winner-take-all
system. That system, by law, results in the
appointment of members of only one political party to
the Nation’s largest electoral college delegation. The
Ninth Circuit held that a claim brought under the
Equal Protection Clause was properly dismissed
because it was governed by a summary affirmance
from over fifty years ago. It dismissed a claim brought
under the First Amendment on independent grounds.
The questions presented are:
(1) Do the Equal Protection Clause, the First
Amendment, or both prohibit California—and,
by the same reasoning, all the States—from
appointing a one-party slate of presidential
electors, thereby rendering irrelevant and
ineffective the votes and views of millions of
voters?
(2) Does a fifty-year-old summary affirmance
control, even where significant developments in
election law since then have undermined its
foundation and where the lower courts are split
as to the proper scope of summary affirmances?

ii
PARTIES TO THE PROCEEDINGS
All parties to the proceedings are named in the
caption.
CORPORATE DISCLOSURE STATEMENT
Petitioners Paul Rodriguez and Rocky Chavez are
natural persons.
Petitioner League of United Latin American
Citizens has no parent company and no publicly held
corporation holds more than 10% of its stock.
Petitioner California League of United Latin
American Citizens is a California affiliate of League of
United Latin American Citizens and no publicly held
corporation holds more than 10% of its stock.
RELATED CASES
•

Rodriguez, et al., v. Brown, et al., No. 2:18-cv001422, U.S. District Court for the Central
District of California. Judgment entered
September 21, 2018.

•

Rodriguez, et al., v. Newsom, et al., No. 1856281, U.S. Court of Appeals for the Ninth
Circuit. Judgment entered September 9, 2020.

•

Lyman, et al., v. Baker, et al., No. 1:18-cv-10327,
U.S. District Court for the District of
Massachusetts. Judgment entered December 7,
2018.

•

iii
Lyman, et al., v. Baker, et al., No. 18-2235, U.S.
Court of Appeals for the First Circuit. Judgment
entered March 31, 2020.

•

Baten, et al., v. McMaster, et al., No. 2:18-cv00510, U.S. District Court for the District of
South Carolina. Judgment entered March 8,
2019.

•

Baten, et al., v. McMaster, et al., No. 19-1297,
U.S. Court of Appeals for the Fourth Circuit.
Judgment entered July 21, 2020.

•

Baten, et al., v. McMaster, et al., No. 19-1297,
U.S. Court of Appeals for the Fourth Circuit.
Judgment entered September 1, 2020.

•

League of United Latin American Citizens, et al.,
v. Abbott, et al., No. 5:18-cv-00175, U.S. District
Court for the Western District of Texas.
Judgment entered February 25, 2019.

•

League of United Latin American Citizens, et al.,
v. Abbott, et al., No. 19-50214, U.S. Court of
Appeals for the Fifth Circuit. Judgment entered
February 26, 2020.

iv
TABLE OF CONTENTS
QUESTIONS PRESENTED ......................................... i
PARTIES TO THE PROCEEDINGS .......................... ii
CORPORATE DISCLOSURE STATEMENT ............. ii
RELATED CASES ....................................................... ii
TABLE OF CONTENTS............................................. iv
TABLE OF AUTHORITIES ....................................... vi
PETITION FOR A WRIT OF CERTIORARI .............. 1
OPINIONS BELOW .................................................... 1
JURISDICTION .......................................................... 1
CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED ............................... 2
INTRODUCTION ........................................................ 3
STATEMENT OF THE CASE..................................... 6
I.

II.

Legal Background ............................................. 6
A.

The non-constitutional origins of
winner-take-all. ...................................... 6

B.

The early but incomplete application
of the Fourteenth Amendment to
presidential selection. ............................ 9

C.

The Delaware missed opportunity and
the Williams summary affirmance. ..... 10

This Case ......................................................... 13
A.

California’s implementation of WTA
and its distorting effect. ....................... 13

B.

Prior proceedings .................................. 15

REASONS FOR GRANTING THE WRIT ................ 17

I.

v
The Decision Below Presents An Issue Of
National Importance That This Court Has
Never Directly Addressed. .............................. 18

II.

The Decision Below Should Be Reversed. ...... 21

III.

A.

WTA burdens the right to an equally
weighted vote by discarding
Petitioners’ votes for President in the
second step of a multi-step election. .... 21

B.

WTA unconstitutionally dilutes the
votes of the losing party under White. . 26

C.

WTA burdens Petitioners’ First
Amendment rights. .............................. 29

This Court Should Grant Certiorari To
Determine The Status Of Summary
Affirmances For Divided Lower Courts, Or,
At Minimum, Grant, Vacate and Remand
With Instructions That Williams Does Not
Control. ............................................................ 31

CONCLUSION .......................................................... 34
APPENDIX
App. A – United States Court of Appeals Opinion,
Rodriguez v. Newsom, 974 F.3d 998 (2020) ................ 1a
App. B – United States District Court Order,
Rodriguez v. Brown, 2018 WL 6136140 (2018) ...... 26a

App. C – Relevant Constitutional and Statutory
Provisions ....................................................................... 37a

vi
TABLE OF AUTHORITIES
Pages
Cases
Allen v. State Bd. of Elections,
393 U.S. 544 (1969) ................................................ 26
Baker v. Nelson,
409 U.S. 810 (1972) ................................................ 32
Baten v. McMaster,
967 F.3d 345 (4th Cir. 2020) .......................... passim
Black v. McGuffage,
209 F. Supp. 2d 889 (N.D. Ill. 2002) ...................... 29
Bostic v. Schaefer,
760 F.3d 352 (4th Cir. 2014) .................................. 32
Burns v. Richardson,
384 U.S. 73 (1966) ............................................ 12, 27
Bush v. Gore,
531 U.S. 98 (2000) .......................................... passim
California Democratic Party v. Jones,
530 U.S. 567 (2000) ................................................ 30
Chiafalo v. Washington,
140 S. Ct. 2316 (2020) ............................ 7, 20, 22, 26
DeBoer v. Snyder,
772 F.3d 388 (6th Cir. 2014) .................................. 32
Delaware v. New York,
385 U.S. 895 (1966) ............................................ 5, 11
District of Columbia v. Heller,
554 U.S. 570 (2008) .......................................... 20, 21
Fortson v. Dorsey,
379 U.S. 433 (1965) .......................................... 12, 27
Gray v. Sanders,
372 U.S. 368 (1963) ........................................ passim
Healy v. James,
408 U.S. 169 (1972) ................................................ 25

vii
Hunter v. Hamilton Cty. Bd. of Elections,
635 F.3d 219 (6th Cir. 2011) .................................. 28
Kitchen v. Herbert,
755 F.3d 1193 (10th Cir. 2014) .............................. 32
League of United Latin Am. Citizens v. Abbott,
951 F.3d 311 (5th Cir. 2020) .................................. 15
Loving v. Virginia,
388 U.S. 1 (1967) .................................................... 20
Lyman v. Baker,
954 F.3d 351 (1st Cir. 2020) .................................. 15
Mandel v. Bradley,
432 U.S. 173 (1977) ................................................ 21
Massachusetts v. U.S. Dep't of Health & Human
Servs.,
682 F.3d 1 (1st. Cir. 2012) ..................................... 32
McCutcheon v. Fed. Election Comm'n,
572 U.S. 185 (2014) ................................................ 30
McDonald v. City of Chicago, Ill.,
561 U.S. 742 (2010) ................................................ 20
McPherson v. Blacker,
146 U.S. 1 (1892) .................................................. 7, 9
Moore v. Ogilvie,
394 U.S. 814 (1969) ................................................ 22
N.L.R.B. v. Noel Canning,
573 U.S. 513 (2014) ................................................ 20
Obergefell v. Hodges,
576 U.S. 644 (2015) ................................................ 32
Reynolds v. Sims,
377 U.S. 533 (1964) ................................................ 29
Rodriguez v. Brown
2018 WL 6136140 (2018) ......................................... 1
Rodriguez v. Newsom
974 F.3d 998 (2020) .................................................. 1
Tashjian v. Republican Party of Conn.,
479 U.S. 208 (1986) ................................................ 29

viii
White v. Regester,
412 U.S. 755 (1973) ........................................ passim
Williams v. Rhodes,
393 U.S. 23 (1968) ............................................ 22, 30
Williams v. Virginia State Bd. of Elections,
288 F. Supp. 622 (E.D. Va. 1968), aff’d, 393 U.S.
320 (1969) ....................................................... passim
Constitutional Provisions
U.S. Const. amend. I .................................................... 2
U.S. Const. amend. XII ................................................ 6
U.S. Const. amend. XIV............................................... 2
U.S. Const. art. II, § 1 .................................................. 6
Statutes
28 U.S.C. § 1254(1) ...................................................... 1
Cal. Elec. Code § 15400 ......................................... 2, 18
Cal. Elec. Code § 15452 ......................................... 2, 18
Cal. Elec. Code § 15505 ............................................... 2
Cal. Elec. Code §§ 6900–6909.......................... 2, 13, 18
Rules
Supreme Court Rule 10 ......................................... 5, 17
Other Authorities
Danielle Kurtzleben, CHARTS: Is the Electoral
College Dragging Down Voter Turnout In Your
State?, NPR (Nov. 26, 2016) .................................. 19
David W. Abbott & James P. Levine, Wrong Winner:
The Coming Debacle in the Electoral College
(1991) .................................................................. 8, 14

ix
Douglas L. Kriner & Andrew Reeves, The
Particularistic President (2015) ............................. 19
John R. Koza et. al, Every Vote Equal: A State-Based
Plan for Electing the President by National
Popular Vote (4th ed. 2013)............................. passim
Letter from Thomas Jefferson to James Monroe
(Jan. 12, 1800) in 31 Papers of Thomas Jefferson,
Vol 31. 300-01 (Barbara B. Oberg., 2004) ......... 7, 25
Noble E. Cunningham, History of American
Presidential Elections 1878–2001 (2002) ................ 8
Thomas Hart Benton, Thirty Years’ View, or A
History of the Working of the American
Government for Thirty Years, From 1820 to 1850,
Vol. I (1880) ........................................................ 8, 25

1
PETITION FOR A WRIT OF CERTIORARI
Petitioners Paul Rodriguez, Rocky Chavez, League
of United Latin American Citizens, and California
League of United Latin American Citizens respectfully
petition this Court for a writ of certiorari to the United
States Court of Appeals for the Ninth Circuit.
OPINIONS BELOW
The opinion of the Ninth Circuit is available at
Rodriguez v. Newsom, 974 F.3d 998 (2020) and is
reproduced in the Appendix at App. A.
The opinion of the District Court is available at
Rodriguez v. Brown, 2018 WL 6136140 (2018) and is
reproduced in the Appendix at App. B.

JURISDICTION
The opinion and judgment of the court of appeals
was entered on September 8, 2020. This Court
extended the time to file any petition for certiorari due
on or after March 19, 2020, to 150 days and thus this
Petition is timely filed. This Court’s jurisdiction is
invoked under 28 U.S.C. § 1254(1).

2
CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED
Article II of the Constitution of the United States is
reprinted in the appendix of this petition. App. 37a–
40a.
The Twelfth Amendment is reprinted in the
appendix of this petition. App. 41a–42a.
The Fourteenth Amendment provides in relevant
part that no State shall “deny to any person within its
jurisdiction the equal protection of the laws.” U.S.
Const. amend. XIV.
The First Amendment provides that “Congress
shall make no law respecting an establishment of
religion, or prohibiting the free exercise thereof; or
abridging the freedom of speech, or of the press; or the
right of the people peaceably to assemble, and to
petition the government for a redress of grievances.”
U.S. Const. amend. I.
California Elections Code §§ 6900–6909, 15400,
15452, 15505 provide for the statewide selection of
single-party presidential elector slates by deeming
votes for a presidential ticket as votes for an entire
slate of presidential electors. App. 42a–47a.
Section 6901 says in relevant part that “[t]he
Secretary of State shall cause the names of the
candidates for President and Vice President of the
several political parties to be placed upon the ballot for
the ensuing general election.” App. 42a–43a.

3
INTRODUCTION
This petition gives this Court the chance to address
the merits of an electoral practice that is longstanding
but constitutionally infirm: a state’s use of the winnertake-all method of selecting presidential electors
(“WTA”). Each presidential election year, this unique
method of selection means that tens of millions of
Republican and Democratic votes are “worth nothing
and . . . counted only for the purpose of being
discarded.” Gray v. Sanders, 372 U.S. 368, 381, n.12
(1963). That makes this method unconstitutional.
Presidential elections in California, and in the rest
of the country, take place in multiple steps. At the first
step, California conducts an election that, from the
perspective of voters is for President, but is in reality
a vote for a slate of presidential electors. In the second
step, over the last eight presidential elections, because
of WTA, the Democratic presidential candidate
received all fifty-five of California’s electoral votes, and
the votes cast by the Republican party’s voters were
ignored. In the final step of the election, the electors
vote for President, making official the predetermined
result.
Of course, in every election, at the final stage, the
votes of the losing candidate are ignored. But the
discarding in this system happens at an intermediate
stage. California does not elect the President. The
Electoral College does. Under WTA, the votes of
California Republicans are discarded before they could
count in the final stage of selecting the President.
Even if viewed as a single-step election for
California’s electors, rather than as a multi-step
election for President, California’s process is

4
constitutionally dubious. From this perspective, the
use of WTA in presidential elections is akin to a single
slate, at-large election for State Assembly in which the
slate of the party that receives the most votes wins all
of the seats. Under White v. Regester, 412 U.S. 755
(1973), such a system would clearly be
unconstitutional and, for that reason at least, is used
nowhere else in America other than in presidential
elections. Nor could it be. It is axiomatic that no state
could throw out every vote cast for all but one political
party and elect a WTA State Assembly. No county
could elect a WTA slate Board of Supervisors, and
thereby reduce the minority party’s representation to
zero. And no city could elect a WTA City Council, so
that only a single party has a voice in legislating. Yet,
every four years, that is exactly what WTA does in
presidential elections.
This cancellation of the votes of the minority party
is unconstitutional for two reasons. First, as Gray
makes clear, the government may not discard millions
of votes at an intermediate step of a multi-stage
election, like that for President. 372 U.S. at 381 n.12.
Second, as this Court made clear in White, 412 U.S. at
769—decided after the summary affirmance in
Williams v. Virginia State Bd. of Elections, 288 F.
Supp. 622 (E.D. Va. 1968), aff'd, 393 U.S. 320 (1969),
on which the court below erroneously relied—states
may not use at-large, slate elections for multi-member
bodies to disregard the preferences of a minority of
voters.
The importance of the issue alone makes this case
cert.-worthy, as this case presents “an important
question of federal law that has not been, but should
be, settled by this Court.” Sup. Ct. R. 10(c). The WTA

5
rule is used by 48 states, and has been for many years,
but it is found nowhere in the Constitution. Nor has
this unique but all-important method of election ever
been sanctioned on the merits by this Court. Instead,
in Delaware v. New York, 385 U.S. 895 (1966), this
Court denied Delaware’s motion to file a complaint
against New York addressing the issue in an original
matter. And three years later, in Williams, this Court
affirmed without opinion the decision of a three-judge
panel upholding a challenge against a very different
doctrinal background and very different arguments
than those made here. The time has come for this
Court to address the issue.
Moreover, the question of Williams’ status is
independently cert.-worthy. Courts below often divide
on the proper interpretation of summary dispositions
on the merits, and they did so here. Yet this Court has
so far done little to settle a conflict of interpretation in
the lower courts. At minimum, this Court should grant
certiorari to provide guidance for how courts should
address Williams.

6
STATEMENT OF THE CASE
I. Legal Background
A. The non-constitutional origins of winnertake-all.
Article II of the Constitution creates the unique
office of “presidential elector” and provides that each
state appoint, “in such manner as the legislature
thereof may direct,” electors equal in number to its
congressional representatives. U.S. Const. art. II, § 1.
Once selected, these electors meet and vote for
President and Vice President. See U.S. Const. amend.
XII. The collection of these electors has come to be
called the “Electoral College.”
No particular method of appointment is mentioned
specifically in Article II, and some degree of political
diversity of each state’s delegation is implicit in the
Constitution. Article II and the Twelfth Amendment,
for instance, direct electors in each state to meet, vote
for President and Vice President, and “make a List of
all the Persons voted for, and of the Number of Votes
for each.” U.S. Const. art. II § 1; amend. XII (similar
text). Implicit in this requirement is that the electors
in a given state may individually vote for different
candidates, not that they will vote as a bloc for a single
ticket.
At the framing, the WTA method of selecting
electors was rarely mentioned: WTA is nowhere
addressed in The Federalist Papers and was not
discussed at the Constitutional Convention. See John
R. Koza et. al, Every Vote Equal: A State-Based Plan
for Electing the President by National Popular Vote 82,
366 (4th ed. 2013). This is not surprising. The framers
intended electors to comprise a state-level,

7
“deliberative body in which presidential electors would
exercise independent and detached judgment.” In the
first election (prior to the rise of partisanship), most of
them acted in that manner. See id. at 73–74 (noting in
this election electors “acted in a reasonably
deliberative manner”); see also McPherson v. Blacker,
146 U.S. 1, 36 (1892) (“[I]t was supposed [by the
Framers] that the electors would exercise a reasonable
independence and fair judgment in the selection of the
Chief Executive.”); Chiafalo v. Washington, 140 S. Ct.
2316, 2326 (2020) (acknowledging that many Framers
“shared that outlook” of Hamilton and Jay that
electors would exercise discretion). But WTA, which
elects a slate of electors on party lines and treats them
as tools for tallying a state’s plurality popular vote, is
inconsistent with this understanding.
It was not the constitutional design, but the rise of
partisan politics that subsequently led to the broad
adoption of WTA. See generally Koza, supra, at 75–82
(partisan gamesmanship led to adoption of WTA, a
system the founders “never envisioned” and for which
they “did not advocate”). Writing to then-Virginia
Governor James Madison in 1800, Thomas Jefferson
criticized WTA, stating that it would ensure that the
“minority [was] entirely unrepresented.” See Letter
from Thomas Jefferson to James Monroe (Jan. 12,
1800) in 31 Papers of Thomas Jefferson, Vol 31. 30001 (Barbara B. Oberg., 2004). He nevertheless urged
Virginia to adopt it for political reasons. Namely,
Jefferson had recently lost the 1796 presidential
election after two states he counted on for support—
Virginia and North Carolina—permitted their
electoral votes to be split among multiple candidates,
while other states, carried by the Federalists, did not.
Id.; see also Noble E. Cunningham, History of

8
American Presidential Elections 1878–2001, 104-05
(2002) (describing the election of 1796). Jefferson
wanted to ensure he received all of Virginia’s electoral
votes in 1800 and that no minority voters received
representation. WTA was the answer. It proliferated
not because it was good for the Nation but because it
was good for political parties.
After Virginia’s Republican legislature adopted
WTA, similar partisan gamesmanship led to its
widespread adoption elsewhere. John Adams, a
Federalist, was concerned that Jefferson might
capture one of Massachusetts’ electoral votes, so he
convinced the state legislature to legislatively award
all of its electors through WTA. Koza, supra, at 80–81.
Partisans around the country used the same reasoning
to persuade their legislatures to adopt WTA and the
method was widespread by 1836. See David W. Abbott
& James P. Levine, Wrong Winner: The Coming
Debacle in the Electoral College 21 (1991) (“The
political logic and competitive pressure from other
states became irresistible. One state followed another
in switching to a winner-take-all system.”). WTA was
not the result of “any disposition to give fair play to the
will of the people. It was adopted by the leading men
of those States, to enable them to consolidate the vote
of the State.” Thomas Hart Benton, Thirty Years’ View,
or A History of the Working of the American
Government for Thirty Years, From 1820 to 1850, Vol.
I, at 38 (1880).
It was in this context that California adopted WTA
following its admission to the Union in 1850. The State
used a form of WTA in the 1852 presidential election
and in every election since then. See generally Koza,
supra, at 82–91.

9
B. The early but incomplete application of
the Fourteenth Amendment to
presidential selection.
Although Jefferson and others recognized the
disenfranchising effect of WTA on political-minority
voters as early as 1800, the legal implications of this
effect would only become clear with the ratification of
the Fourteenth Amendment’s Equal Protection Clause
and the evolution of the principle of “one person, one
vote.” Yet, without this Court’s intervention in this
case, that application will remain incomplete.
Shortly after the ratification of the Fourteenth
Amendment, this Court first acknowledged that the
Equal Protection Clause operates to restrict a State’s
power under the Elector Clause in McPherson v.
Blacker. 146 U.S. at 24–25. The plaintiffs in
McPherson challenged Michigan’s law providing for
the selection of electors pursuant to congressional
district, arguing the Elector Clause required WTA,
and that the Equal Protection Clause afforded each
citizen the right to vote for each elector, precluding
district elections. Id. at 24, 39. This Court rejected
their claims. In doing so, it held that a challenge to a
state’s method of allocating its electors does not
present a political question, id. at 24, and that the
Fourteenth Amendment applies to elections for
electors, see id. at 40.
Sixty years later, the Supreme Court relied on the
developing principle of “one person, one vote” to hold
unconstitutional the Georgia Democratic Party’s
“deeply rooted and long standing” process for
conducting its primary elections. Gray, 372 U.S. at
381. Under that system, which resembles
fundamentally the WTA method of allocating electors,

10
the Georgia Democratic Party provided each county a
set number of units corresponding to the number of
representatives it had in Georgia’s lower House of
Representatives. Id. at 370. Each county then
conducted its own election for statewide officeholders,
such as governor, and awarded all of its units to the
winner in each county. Id. This Court held that this
system violated the Constitution first, because units
were not allocated in proportion to population, and so
unconstitutionally favored rural voters. See id. at 379.
But second, and significant here, the Court also held
that even if “unit votes were allocated strictly in
proportion to population,” the unconstitutional
“weighting of votes would continue” because of WTA.
Id. at 381 n.12. That is, WTA requires “the candidate
winning the popular vote in the county to have the
entire unit vote of that county,” ensuring “votes for a
different candidate [would be] worth nothing and . . .
counted only for the purpose of being discarded.” Id.
The Court thus held that Georgia’s use of WTA in a
context materially identical to WTA’s use in
presidential elections constituted an independent
constitutional violation.
C. The Delaware missed opportunity and the
Williams summary affirmance.
Immediately following Gray, several stakeholders
began to realize that WTA might be unconstitutional
under the Gray reasoning and the emerging “one
person, one vote” line of cases. In Delaware v. New
York, Delaware moved in this Court to litigate an
original lawsuit challenging WTA because “[i]n every
election, the state unit system abridges the political
rights of substantial numbers of persons by arbitrarily
awarding all of the electoral votes of their state to the

11
candidate receiving a bare plurality of its popular
votes.” Delaware v. New York, Orig. No. 28 (1966),
Motion for Leave To File Bill of Complaint ¶ 7. This
Court, though, denied leave to file without opinion. 385
U.S. 895.
Two years later, a different group of plaintiffs
challenged Virginia’s use of WTA to allocate
presidential electors under the Equal Protection
Clause. These plaintiffs, though, did not cite Gray’s
second holding or argue WTA discarded their votes for
President at the second step in a multi-step election,
as in Gray. See Williams, 288 F. Supp. at 629. Instead,
they argued that WTA discriminated against members
of Virginia’s minority party by canceling out their
votes in an at-large election for electors. Id. at 622
(“Unfairness is imputed to the plan because it gives
the choice of all of the electors to the statewide
plurality of those voting in the election" ‘winner take
all’ and accords no representation among the electors
to the minority of the voters.”).
A three-judge panel rejected their challenge, and
this Court again avoided directly addressing the
question and instead summarily affirmed the lower
court’s decision. The three-judge panel agreed that the
Williams plaintiffs’ argument had “merits and
advantages,” and acknowledged that “once the
electoral slate is chosen, it speaks only for the element
with the largest number of votes,” and that “[t]his in a
sense is discrimination against minority voters.”
Williams, 288 F. Supp. at 627, 629. It nevertheless
held that such discrimination was not enough to
violate the Constitution unless “invidious.” Id. at 627.
This Court summarily affirmed but did not opine on
the merits of the issue. 393 U.S. at 320.

12
Williams’ holding was unsurprising given the law
at the time and given the limited arguments made by
the plaintiffs. But four years after Williams, in White
v. Regester, the Court squarely addressed on the
merits the argument made by the plaintiffs in
Williams, in the context of ethnic minorities. The
Court struck down an at-large election for a multimember body, directly analogous to the first step in the
multi-step process of electing Presidents, on the
ground that it canceled out minority votes, White, 412
U.S. at 769–70; see also Burns v. Richardson, 384 U.S.
73, 88 (1966) (quoting Fortson v. Dorsey, 379 U.S. 433,
439 (1965)) (“apportionment schemes including multimember districts” are constitutionally invalid “if it can
be shown that ‘designedly or otherwise a multimember constituency apportionment scheme, under
the circumstances of a particular case, would operate
to minimize or cancel out the voting strength of racial
or political elements of the voting population.”).
And even later, the Court made clear that if an
electoral process fails to “satisfy the minimum
requirement for non-arbitrary treatment of voters
necessary to secure the fundamental right to vote,” it
violates the Equal Protection Clause with no
requirement of a finding of invidiousness. Bush v.
Gore, 531 U.S. 98, 104–05 (2000).
WTA has thus persisted for another 50 years since
Delaware and Williams even as Equal Protection
jurisprudence has evolved. But this Court has never
directly addressed the merits of the practice.

13
II. This Case
A. California’s implementation of WTA and
its distorting effect.
California, like 47 other states, uses the WTA
system to select a one-party slate of electors that
supports the Presidential and Vice-Presidential
candidates
at
the
top
of
the
ticket.
Cal. Elec. Code §§ 6900-09, 15505.
Ballots
for
California’s fifty-five presidential electors print only
the names of the presidential candidates; the electors’
names are not permitted to be on the ballot. Cal. Elec.
Code §§ 6901-02. Those electors are then bound, by
law, to support the “candidates of the political party
which they represent.” Cal. Elec. Code § 6906. In every
respect, the electors’ modern role is purely ministerial.
The democratic burdens this system imposes on
voters and citizens like Petitioners have become
especially clear in recent decades. In each of the last
eight presidential elections, California, relying on
WTA, has awarded all of its electoral votes to the
Democratic ticket and has effectively discarded over
31 popular million votes for Republican candidates.
Compl. ¶ 3, 5. Any incremental change in California’s
popular vote has therefore had no effect on the
outcome of the national presidential election margin
by design: the Republican candidate has won as little
as 30%, and as much as 44.3% of the popular vote. But,
despite the fact that the election is for President, the
Republican party has always received zero electoral
votes. Id. ¶ 33.
Because it is used so widely, WTA distorts
American democracy. In modern elections, WTA
incentivizes presidential campaigns to focus on

14
battleground states at the expense of one-partydominated, “safe” states like California. WTA ensures
that California’s fifty-five electoral votes are treated as
safely Democratic. Id. ¶ 8. Thus, in 2016, 14
battleground states received 99% of candidates’
advertising and 95% of their personal appearances. Id.
¶ 8. California—despite being the most populous state
in the union—was not among these states. Id. ¶ 8.
WTA ensures that minority party voters have less
incentive to participate in presidential elections and
associate with like-minded voters—as their votes are
predictably irrelevant to the election. And WTA may
skew the priorities of the Executive branch itself,
affecting issues as diverse as disaster relief and the
general allocation of federal funds. Compl. ¶ 46.
WTA also ensures that presidential candidates are
increasingly likely to win elections without winning
the popular vote. Abbott & Levine, supra, at 21-42
(explaining how WTA makes this outcome more
likely); accord Koza, supra, at 129. And indeed, WTA
even
jeopardizes
national
security:
modern
technological trends have made American elections
increasingly vulnerable to attacks by hostile foreign
entities. WTA—by artificially ensuring elections come
down to a small but predictable pocket of votes—
makes presidential elections especially vulnerable to
such attacks. Id. ¶¶ 51-53. These effects are not caused
by the Electoral College itself. They are caused,

15
instead, by the use of a device nowhere sanctioned by
the Constitution: WTA.1
B. Prior proceedings
Recognizing the burden WTA places on their rights
to vote and associate in violation of the Equal
Protection
Clause
and
First
Amendment,
Petitioners—two California Republican voters and two
non-profits—brought the underlying suit seeking a
declaration that WTA is unconstitutional and must be
enjoined.
The state moved to dismiss, and the district court
granted the State’s motion, primarily holding that the
Supreme Court’s summary affirmance in Williams
foreclosed Petitioners’ challenge. App. 26a–36a. On
appeal, the Ninth Circuit affirmed the dismissal in an
opinion filed on September 8, 2020. App. 1a–26a.
The court of appeals, like the district court before
it, primarily relied on the argument that the Williams
summary affirmance controlled the outcome. The
court noted the factual similarities between this case
and Williams and held that Williams had “binding

As this makes clear, the unconstitutional effects of WTA are
not confined to California. Cases challenging WTA were also filed
in Massachusetts, another state dominated by Democrats, and in
Texas and South Carolina, which are dominated by Republicans.
Baten v. McMaster, 967 F.3d 345 (4th Cir. 2020), as amended
(July 27, 2020) (South Carolina); Lyman v. Baker, 954 F.3d 351
(1st Cir. 2020) (Massachusetts); League of United Latin Am.
Citizens v. Abbott, 951 F.3d 311 (5th Cir. 2020) (Texas). The cases
were brought in the recognition that this issue requires a national
solution. Because this Court uniquely can resolve the issue
nationally though granting cert. in only one case, this is the only
cert. petition from that quartet of cases.
1

16
effect” even though it was a summary affirmance. App.
9a. The court acknowledged that subsequent cases,
such as White, had modified and refined the relevant
standard, but it held those later cases applicable only
where there is “invidious discrimination,” which the
court said was not the case here. App. 11a. The court
also rejected the argument that Gray should control.
App. 14a–19a. And the court of appeals rejected the
First Amendment associational arguments because it
held that WTA “does not limit [Petitioners’] ability to
associate with like-minded voters.” App. 22a.
While there was no dissent in this case, there was
a dissent in a similar case brought in the Fourth
Circuit. First, the dissenting judge noted that this case
did not present the “precise issues” addressed in
Williams, because, among other reasons, that case did
not address the argument based on the second holding
in Gray and because that case “does not speak to the
issue of vote dilution,” presented and decided after the
Williams case in White. Both of those issues are
central here. Baten v. McMaster, 967 F.3d 345, 364
(4th Cir. 2020), as amended (July 27, 2020) (Wynn, J.,
dissenting). The dissent noted that Equal Protection
doctrine has “developed significantly” since Williams.
Id.
Freed from the yoke of Williams, the dissent
applied straightforward principles of vote dilution,
first articulated in White, to conclude that the
plaintiffs here had plausibly alleged that the WTA
system may not pass muster under the Fourteenth
Amendment. After all, “by submerging [the plaintiffs’]
votes in the state-wide total and then allocating
electors only on the basis of the state-wide plurality
winner, South Carolina has subjected them to

17
arbitrary and disparate treatment and created a
system that is not equally open to participation by
South Carolina’s Democratic voters.” Id. at 369. The
dissent also recognized there was a “cognizable First
Amendment burden” from WTA because voters in nonswing states have diminished opportunities to
organize, build political power, and interface with and
petition candidates. Id. 373–74. The same
considerations apply directly in this case.
This petition follows.
REASONS FOR GRANTING THE WRIT
This case undoubtedly meets the conventional
requirements for certiorari. See Supreme Court Rule
10. The issue of the method of presidential selection is
undeniably important: presidential elections are
perhaps this nation’s most consequential democratic
exercises. Yet this Court has never directly opined on
the merits of what is by far the dominant method of
selecting electors. It should remedy that lacuna. When
it does, it should make clear that the “one person, one
vote” principle requires that each vote be treated fully
and equally in presidential elections, no less than
other elections. And that requires the retirement of the
WTA method of selecting electors.
Aside from the merits, this case also gives this
Court a chance to clarify the status of summary
affirmances, which have long befuddled the lower
courts. Courts below have disagreed about the status
of Williams specifically, and, more broadly, courts
have not received any recent guidance on how to treat
summary affirmances. This Court could use this case
to clarify important law.

18
This case is the ideal vehicle to decide both
questions. This appeal cleanly presents the question of
presidential selection outside of a heated political
contest. It presents the merits question in the context
of litigation against a state with the Nation’s largest
allocation of presidential electors, which reveals the
magnitude of the problem. And the decision below
squarely considered the scope of the Williams
summary affirmance, and disagreed with other courts,
including the district court here and the Fourth
Circuit, about its impact. This Court should grant
certiorari on both questions, or, at minimum, grant,
vacate, and remand the decision to give the lower
courts a chance to decide this question without feeling
bound to an overly weighty assessment of the import
of Williams.
I. The Decision Below Presents An Issue Of
National Importance That This Court Has
Never Directly Addressed.
“California, like all but two states, awards all of its
electors to the party of the candidate who wins the
popular vote in the State.” App. 4a. (citing Cal. Elec.
Code §§ 6901, 6902, 6906, 15400, 15452, 15505).
Indeed, California has selected electors this way since
it was admitted to the Union in 1850. Nearly all states
have followed suit and have used WTA since the mid19th century or earlier. See Koza, supra, at 82–91.
But, while the legal landscape changed drastically
since this system ossified, this Court has never
considered whether this centuries-old system survived
the Constitution’s amendments. In particular, the
Fourteenth Amendment was adopted in 1868. The
protections under that Clause include the principle of
“one person, one vote,” which prohibits a state from

19
discarding or diluting the votes of certain citizens,
while magnifying those of others, unless that outcome
is required by a specific constitutional provision. See
Gray, 372 U.S. at 380–81; see also Bush, 531 U.S. at
104–05. This Court has never reviewed on the merits
the use of WTA, much less, under that standard.
The importance of addressing the issue at long last
could not be clearer. Petitioners plausibly alleged, and
the lower courts did not dispute, that because of WTA,
presidential campaigns all but ignore nonbattleground states, including California, the
country’s most populous state. 2 Under WTA, two
recent presidential elections have resulted in the
selection of Presidents who lost the popular vote but
won a majority of electors. The demographic patterns
suggest this may happen with increasing frequency.
Because WTA creates “safe,” non-battleground states,
WTA dis-incentivizes potential voters from casting a
ballot. And because of WTA, the priorities of the
Executive Branch can be distorted, favoring swing
states over the interests of voters in states like
California in a way inconsistent with the basic tenets
of American democracy.3

See Compl. ¶ 8 (noting that statistics show that effectively
all of candidates’ time and money is spent in swing states). This
negatively impacts voter turnout. See, e.g., Danielle Kurtzleben,
CHARTS: Is the Electoral College Dragging Down Voter Turnout
In Your State?, NPR, https://www.npr.org/2016/11/26/503170280
/charts-is-the-electoral-college-dragging-down-voter-turnout-inyour-state (Nov. 26, 2016).
3 Douglas L. Kriner & Andrew Reeves, The Particularistic
President 175 (2015) (noting that the focus on swing states is a
2

20
This Court has not hesitated to grant certiorari
when presented with long-standing, important
practices that have somehow avoided this Court’s
review. It only recently affirmed that laws binding
presidential electors to vote for specific candidates
were constitutional, though those laws have been in
place for over a century. See Chiafalo, 140 S. Ct. at
2319. It decided questions regarding aspects of the
Recess Appointments Clause that had been in use for
centuries but had escaped this Court’s review until
recently. N.L.R.B. v. Noel Canning, 573 U.S. 513
(2014). And, more than two hundred years after the
passage of the Second Amendment, the Court for the
first time held that the Second Amendment protected
an individual right to bear arms, and that the
Amendment was incorporated against the states.
District of Columbia v. Heller, 554 U.S. 570 (2008);
McDonald v. City of Chicago, Ill., 561 U.S. 742 (2010)
(incorporation). In 1967, the Court invalidated
Virginia’s laws against interracial marriage, which
“arose as an incident to slavery and have been common
in Virginia since the colonial period.” Loving v.
Virginia, 388 U.S. 1, 6 (1967).
This case is in a similar vein. As the Court noted in
Heller, “[i]t should be unsurprising that such a
significant matter has been for so long judicially
unresolved.” Heller, 554 U.S. at 625. Aside from the
two chances in the late 1960s to address this question,

recent element of presidential elections; that technological
advances are making it increasingly easy for “[m]odern
presidential candidates [to] focus on courting swing state voters;”
and that “contemporary presidents may have even greater
incentives to pursue particularistic policies for electoral gain than
did their predecessors”).

21
neither of which resulted in a merits opinion by this
Court, “[f]or most of our history the question did not
present itself.” Id. at 626. It took some time for the
Court to make clear that the Equal Protection Clause
required equal weighting of votes. And it took even
longer to understand the true impact of WTA on
individual rights.
But now the impact is clear: WTA violates the
constitutional principle of equal votes, and that
violation badly harms voters and our entire political
system. This Court should grant certiorari to address
the status of WTA.
II. The Decision Below Should Be Reversed.
This Court, of course, is not bound by the summary
affirmance in Williams. See, e.g., Mandel v. Bradley,
432 U.S. 173, 176 (1977) (noting that “lower courts are
bound by summary actions on the merits by this
Court”) (emphasis added). When this Court addresses
the issue without needing to address the impact of the
outdated holding of Williams, it is clear that the Ninth
Circuit should be reversed. WTA is not consistent with
the Fourteenth Amendment’s promise of equality or
the First Amendment’s promise of freedom of political
association.
A. WTA burdens the right to an equally
weighted vote by discarding Petitioners’
votes for President in the second step of a
multi-step election.
Although under Article II of the Constitution, a
state may decide in the first instance the manner in
which it selects presidential electors, the exercise of
that choice must be consistent with other
constitutional commands. Bush, 531 U.S. at 104–05,

22
107. See also Chiafalo, 140 S. Ct. at 2324 n.4, Moore v.
Ogilvie, 394 U.S. 814, 819 (1969), Williams v. Rhodes,
393 U.S. 23, 29 (1968). Thus, when a state exercises its
choice in favor of giving its citizens the right to vote for
President, that vote becomes a “fundamental” right
entitled to “equal weight” and endowed with “equal
dignity” relative to other voters, and subject to the
protections of the Equal Protection Clause. Bush, 531
U.S. at 104. The protections under that Clause include
the principle of “one person, one vote,” which prohibits
a state from discarding or diluting the votes of certain
citizens, while magnifying those of others, unless that
outcome is required by a specific constitutional
provision. See Gray, 372 U.S. at 380–81.
California’s use of WTA magnifies the influence of
a plurality of California voters by awarding their
chosen candidate all fifty-five of its electoral votes, and
by counting all other votes “only for the purpose of
being discarded.” Gray, 372 U.S. at 381 n.12.
California’s use of WTA thus violates the principle of
“one person, one vote,” and burdens Petitioners’ rights
under the Fourteenth Amendment. See id.
This conclusion follows directly from Gray. In Gray,
plaintiffs challenged the Georgia Democratic Party’s
practice of using the county unit system to conduct
statewide primaries for senator and governor. Id. at
370–71, 76. Under that system, each county received a
set number of units corresponding to the number of
representatives it had in Georgia’s lower House of
Representatives. Id. at 370. Each county then
conducted its own election, awarding all of its units to
the plurality vote-getter through WTA. Id. The units
were then tallied at the state level, with the majority
winner receiving the nomination. Id. Like the

23
presidential election system, Georgia thus had a
multi-step process for selecting statewide candidates;
the votes of the minority were discarded at an
intermediate stage of that reckoning.
The Court found problematic the unequal
distribution of units relative to the population of a
given county. But it also addressed a distinct
constitutional problem apart from the quantity of
units allocated to counties: the use of WTA to award
those units at that intermediate stage. The Court
recognized that Georgia had proposed an amendment
that would allocate units more proportionally to
population, but the Court also held that, even if “unit
votes were allocated strictly in proportion to
population,” the resulting scheme would still be
unconstitutional. Id. at 381 n.12. That was because of
the method by which the counties awarded their units:
WTA. Id. (explaining that Georgia would allow “the
candidate winning the popular vote in the county to
have the entire unit vote of that county”). Because of
WTA, “if a candidate won 6,000 of 10,000 votes in a
particular county, [that candidate] would get the
entire unit vote, the 4,000 other votes for a different
candidate being worth nothing and being counted only
for the purpose of being discarded.” Id. Because WTA
ensured that incremental vote changes in each county
could have no effect on the state election, it violated
the principle of “one person, one vote.” Stated
differently, the problem with Georgia’s primary was
not only the number of units allocated to each county,
but independently of that inequality, that minority
votes were discarded at an intermediate stage. WTA,
in other words, was the problem.

24
The modern use of WTA in the presidential election
is precisely analogous to the system invalidated in
Gray. Just as in Gray, the presidential election is
conducted in multiple steps. At the first step,
California conducts an election, that in the view of
voters is for President, but is in fact a vote for a slate
of presidential electors. In the second step, instead of
allocating the electors in proportion to the votes
received, the plurality winning candidate receives all
of the State’s electoral votes, and the losing party’s
voters have all of their votes thrown out. In the final
step, all of California’s electors, chosen as a single
slate, validate the predetermined result by voting for
the presidential candidate selected by a plurality of
voters. Thus, in the final step of a presidential
election—the vote in the Electoral College—the votes
of California Republicans have been erased.
Just as in Gray, California uses WTA at an
intermediate stage to consolidate its electoral votes and
provide them to the candidate receiving the plurality
of votes. Then, whether a losing candidate receives
10% or 40% of California’s popular vote, those votes
are “discarded” before they can affect the actual
election: in Gray, for senator or governor, and in
California, for President. Gray, 372 U.S. at 381 n.12.
The use of WTA in this circumstance is not “sanctioned
by the Constitution.” Id. at 380. Thus, as in Gray,
WTA’s unequal weighting of votes violates the Equal
Protection Clause.
California could have, in theory, put the names of
electors on the ballot and afforded those electors a true
independent say in who becomes President. But it has
done the opposite: it has passed laws mandating that
electors function as nothing more than the units in

25
Gray. California cannot treat its electors as units, and
simultaneously insulate WTA from review by
suggesting its citizens are voting for independent
electors, and this Court should not ignore that reality.
Healy v. James, 408 U.S. 169, 183 (1972) (noting that
courts “are not free to disregard the practical
realities.”). Thus, when the election is seen as it truly
is—an election for President and Vice President that
happens to be conducted in multiple steps—it becomes
clear that neither California nor any other state can
throw away millions of votes.
Moreover, the history of WTA reveals that this
unconstitutional erasure of the votes of millions of
citizens was not just a bug in the system, but a feature
of it. It was designed not to promote fairer elections
that equally weighted every vote—the modern
constitutional requirement—but to enable politicians
to “consolidate the votes of the State.” Benton, supra,
at 38. Jefferson himself lamented that the system
would leave the “minority . . . entirely unrepresented,”
but he recognized that the states his party controlled
would be constrained to adopt WTA defensively if the
other party did so in states they controlled. Jefferson
Letter, supra, at 300-01.
Today, we recognize this as a classic problem of
game theory. In some scenarios, all parties get stuck
in a suboptimal position because changing unilaterally
would result in a short-term loss for the state that
changes its rules, even if all parties would be better off
in the long run following a change en masse. That is
the situation America finds itself in now with respect
to WTA. It is unconstitutional and creates great harm.
Only this Court can remedy the unconstitutional
status quo.

26
B. WTA unconstitutionally dilutes the votes
of the losing party under White.
As this Court recently recognized, “[e]very four
years, millions of Americans cast a ballot for a
presidential candidate.” Chiafalo, 140 S. Ct. at 2319.
As a practical matter, however, citizens’ votes
“actually go toward selecting members of the Electoral
College, whom each State appoints based on the
popular returns,” and “[t]hose few ‘electors’ then
choose
the
President.”
Id.
WTA
then
unconstitutionally operates to dilute the votes of the
losing party – in this case, the Republican Party – by
immersing them in an at-large, state-wide sea of
Democratic votes. In no other election could a state
require that a multi-member, state-level body be
composed solely of members of one political party. To
do so unconstitutionally dilutes the votes of those who
did not vote for the majority party.
This Court has held that the “right to vote can be
affected by a dilution of voting power” through either
the adoption of at-large voting schemes or “by an
absolute prohibition on casting a ballot.” Allen v. State
Bd. of Elections, 393 U.S. 544, 569 (1969). In
particular, “apportionment schemes including multimember districts” are constitutionally invalid “if it can
be shown that ‘designedly or otherwise, a multimember constituency apportionment scheme, under
the circumstances of a particular case, would operate
to minimize or cancel out the voting strength of racial
or political elements of the voting population.’” Burns,
384 U.S. at 88 (quoting Fortson v. Dorsey, 379 U.S.
433, 439 (1965)).
In White, this Court applied this principle to
invalidate a multi-member districting scheme. The

27
Court held that Mexican-Americans in one Texas
county were “effectively removed from the political
processes” when their votes were submerged into an
at-large pool with a majority that was likely to
multiply its voting power. Accordingly, the voting
system in place violated their Fourteenth Amendment
rights to an equally weighted vote. Id. That holding
applies equally to discrimination on the basis of race
and political party, because “multi-member districts”
can unconstitutionally “diminish the opportunity of a
minority party to win seats.” Burns, 384 U.S. at 88
n.14.
WTA appears nowhere else in our electoral
universe. If it did, its unconstitutionality would be
plain. Suppose California decided to abolish its forty
single-member state senate districts and instead hold
a statewide election for all of its senators using one atlarge WTA election, in which voters can choose either
the Democratic slate or the Republican slate. The
result would be legally-required single-party rule, and
would affect an unprecedented denial of minority
representation in a state-level body. The story would
be the same at any level of government. There can be
no such thing as a constitutional city-level, countylevel, or district-level multi-member body that is
required to be composed entirely of members of one
political party. Perhaps such a scheme would have a
place in one-party China, but here, it would be
unconstitutional under White and Burns.
The court of appeals had no meaningful response to
this point. Instead, it relied primarily on the
proposition that “Williams controls and forecloses
[the] equal protection claim.” App. 14a. But that is not
a sufficient defense on the merits. If one recognizes, as

28
held in Bush 531 U.S. at 104-05, that the “one-person,
one-vote” principle applies to presidential elections,
then it becomes clear that WTA “unconstitutionally
submerge[es] [Plaintiffs’] votes in the state-wide total”
and leaves a wide swath of voters without any
representation. Baten, 967 F.3d at 369 (Wynn, J.,
dissenting). The court below could not argue that such
a scheme would be constitutional in any other election
for any other multi-member body, nor could it. Carving
out an exception for presidential elections has no place
in law.
The court below also suggested that the sui generis
scheme could pass constitutional muster because the
WTA scheme was not adopted for any kind of invidious
reason—that is, even if it dilutes votes, there was no
impermissible intent. But although invidiousness may
be relevant to certain challenges, such as in
gerrymandering cases, there are electoral systems
that are sufficiently arbitrary in their treatment of
voters that no showing of invidiousness is required.
This Court in Bush found a violation of “one person,
one vote,” yet it never discussed whether the
discrimination in voting it found was “invidious.” 531
U.S. at 104–05. Rather, the Court held that under the
Equal Protection Clause, “the State may not, by later
arbitrary and disparate treatment, value one person’s
vote over that of another.” Id. As lower courts have
recognized, invidiousness is not required where voting
requirements result in arbitrary and disparate
treatment. See, e.g., Hunter v. Hamilton Cty. Bd. of
Elections, 635 F.3d 219, 233 (6th Cir. 2011) (rejecting
that an election-related violation of the Equal
Protection Clause always requires intentional
discrimination); Black v. McGuffage, 209 F. Supp. 2d
889, 899 (N.D. Ill. 2002) (“Any voting system that

29
arbitrarily and unnecessarily values some votes over
others cannot be constitutional.”). Instead, it is the
effects that matter: “the idea that one group can be
granted greater voting strength than another is hostile
to the one man, one vote basis of our representative
government” applies squarely to this case. Bush, 531
U.S. at 105 (internal quotation marks omitted).
C. WTA burdens Petitioners’ First
Amendment rights.
As the court of appeals recognized, Petitioners’
claims under the First Amendment are not controlled
by Williams. App. 20a. Nonetheless, the court held
that Petitioners had not plausibly alleged
constitutional violations. That was error, for two
reasons.
First, by diluting and discarding votes, WTA
violates Petitioners’ right to cast an effective vote.
Compl. ¶¶ 14, 44, 58; Reynolds v. Sims, 377 U.S. 533,
565 (1964) (“[E]ach and every citizen has an
inalienable right to full and effective participation in
the political process.”) WTA strips Petitioners’ votes of
any meaning “at the crucial juncture at which the
appeal to common principles may be translated into
concerted action, and hence to political power in the
community.” Tashjian v. Republican Party of Conn.,
479 U.S. 208, 216 (1986).
To be sure, Petitioners do not have a right to have
their chosen candidate win. But, in creating a political
system whereby California minority-party votes can
never be expected to affect the presidential election,
California not only denies these voters the right to
effectively vote, but predictably removes their “basic
incentive” for participating in the presidential election

30
at all. See Rhodes, 393 U.S. at 41 (Harlan, J.,
concurring) (by denying a person “any opportunity to
participate in the procedure by which the President is
selected, the State . . . eliminate[s] the basic incentive
that all political parties have for [assembling,
discussing public issues, or soliciting new members],
thereby depriving [them] of much of the substance, if
not the form, of their protected rights.”).
Second, in distorting the political process, WTA
predictably severs the connection between voters and
presidential candidates, ensuring such candidates
ignore California’s voters in each election cycle—and
in setting national priorities. Compl. ¶¶ 8, 46. The
system thus undermines the core relationship at the
heart of democracy, between constituents and their
representatives. See McCutcheon v. Fed. Election
Comm'n, 572 U.S. 185, 227 (2014) (“Representatives
are not to follow constituent orders, but can be
expected to be cognizant of and responsive to those
concerns. Such responsiveness is key to the very
concept of self-governance through elected officials.”).
As Judge Wynn of the Fourth Circuit recognized, this
negatively impacts both parties, because “all major
party candidates do not come to [safe states] because
of the . . . winner-take-all system.” The bottom-line is
that, without WTA, Petitioners’ votes would matter,
and these candidates would presumably take note. Cf.
California Democratic Party v. Jones, 530 U.S. 567,
581 (2000) (“That party nominees will be equally
observant of internal party procedures and equally
respectful of party discipline when their nomination
depends on the general electorate rather than on the
party faithful seems to us improbable.”). With WTA,
they are ignored.

31
III. This Court Should Grant Certiorari To
Determine The Status Of Summary
Affirmances For Divided Lower Courts, Or,
At Minimum, Grant, Vacate and Remand
With Instructions That Williams Does Not
Control.
As an independent matter, the lower courts are
divided on the proper interpretation of this Court’s
summary merits dispositions, and this Court should
use this appeal to clarify that such decisions must be
read very narrowly, else they prevent the proper
development of the law in light of current
jurisprudence.
In this very case, the court of appeals and district
court disagreed about the scope of the summary
affirmance in Williams. The court of appeals thought
it controlled the Fourteenth Amendment claims only,
while the district court thought that it controlled all
the claims in the case. Compare App. 20a with App.
35a. (“Because the Supreme Court summarily
affirmed a state’s use of the WTA method in selecting
presidential electors as constitutional in Williams, the
Court also grants Defendants’ Motion to dismiss
Plaintiffs’ associational rights claim under the First
and Fourteenth Amendment.”).
That was not the only split on this precise issue.
While the Ninth Circuit viewed Williams as
controlling at least with respect to the Fourteenth
Amendment claim, the Fourth Circuit found it
“persuasive” but not necessarily controlling. Baten,
967 F.3d at 355; see also id. at 362 (Wynn, J.,
dissenting) (agreeing that Williams was not
controlling).

32
This is not the only time the lower courts have been
split on the meaning and impact of one of this Court’s
summary dispositions on the merits. In the years
preceding this Court’s decision in Obergefell v. Hodges,
576 U.S. 644 (2015), the courts were divided over the
impact of the 1972 summary dismissal for lack of a
substantial question in Baker v. Nelson, 409 U.S. 810
(1972). Some thought that the summary decision was
binding on lower courts until the case is directly
overruled by this Court, regardless of doctrinal
developments. DeBoer v. Snyder, 772 F.3d 388, 400
(6th Cir. 2014) (following Baker in rejecting claim that
Constitution prohibited ban on same-sex marriage);
Massachusetts v. U.S. Dep't of Health & Human
Servs., 682 F.3d 1, 8 (1st Cir. 2012) (Baker “is
precedent binding on us unless repudiated by
subsequent Supreme Court precedent”). Other courts,
by contrast, held that lower courts need not follow a
summary decision on the merits if subsequent
developments have rendered the decision obsolete,
even if this Court has not “explicitly overrule[d]” the
summary disposition. Bostic v. Schaefer, 760 F.3d 352,
373 (4th Cir. 2014); Kitchen v. Herbert, 755 F.3d 1193,
1205 (10th Cir. 2014) (noting that Baker had been
“undermined” and refusing to follow it). In Obergefell,
this Court overruled Baker but provided no guidance
as to how lower courts should treat similar precedents
going forward. 576 U.S. at 675.
This Court should grant certiorari and clarify the
standard for lower courts. This is an excellent vehicle
for doing so, as this Court’s voting rights jurisprudence
has hardly been stagnant since Williams was affirmed
without opinion half a century ago. Moreover, courts
below split three ways on the meaning and scope of
Williams, so this Court’s guidance is clearly necessary.

33
Finally, at minimum, this Court could grant certiorari,
vacate the decision below, and remand with
instructions that Williams does not control, so that the
lower courts may consider this important issue under
modern voting rights law.
***
This petition presents this Court with the rare
opportunity to resolve an important electoral issue
that has not yet been the subject of this Court’s careful
scrutiny. But, in fact, WTA is unique in our electoral
universe. The time has come for this Court to at last
address its constitutional status.

34
CONCLUSION
For the foregoing reasons, this Court should grant
the petition for certiorari to determine the
constitutional status of the use of WTA for presidential
elections.
Respectfully submitted,
James P. Denvir III

David Boies

BOIES SCHILLER FLEXNER LLP Counsel of Record
1401 New York Ave., NW
BOIES SCHILLER FLEXNER LLP

Washington, DC 20005
(202) 237-2727
jdenvir@bsfllp.com

333 Main Street
Armonk, NY 10504
(914) 749-8200
dboies@bsfllp.com

Luis Roberto Vera Jr.
LUIS VERA JR., & ASSOCIATES

1325 Riverview Towers
111 Soledad
San Antonio, TX 78205
(210) 225-3300
lrvlaw@sbcglobal.net

L. Lawrence Lessig
EQUAL CITIZENS

12 Eliot Street
Cambridge, MA 02138
(617) 496-1124
lessig@law.harvard.edu

Attorneys for Petitioners
Dated: February 5, 2021

APPENDIX

1a
APPENDIX A — Appendix
OPINIONAOF THE UNITED
STATES COURT OF APPEALS FOR THE NINTH
CIRCUIT, FILED SEPTEMBER 8, 2020
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
974 F.3d 998
PAUL RODRIGUEZ; ROCKY CHAVEZ; LEAGUE
OF UNITED LATIN AMERICAN CITIZENS;
CALIFORNIA LEAGUE OF UNITED LATIN
AMERICAN CITIZENS,
Plaintiffs-Appellants,
v.
GAVIN NEWSOM,* IN HIS OFFICIAL CAPACITY
AS GOVERNOR OF THE STATE OF CALIFORNIA;
ALEX PADILLA, SECRETARY OF STATE OF
CALIFORNIA, IN HIS OFFICIAL CAPACITY
AS SECRETARY OF STATE OF THE STATE OF
CALIFORNIA,
Defendants-Appellees.
No. 18-56281

Gavin Newsom is substituted for his predecessor, Edmund G.
Brown, Jr., as Governor of the State of California. Fed. R. App. P.
43(c)(2).
*

2a
Appendix A
Appeal from the United States District Court
for the Central District of California,
D.C. No. 2:18-cv-01422-CBM-AS,
Consuelo B. Marshall, District Judge, Presiding
March 3, 2020, Argued and Submitted, Pasadena,
California; September 8, 2020, Filed
Before: Consuelo M. Callahan and Jacqueline H. Nguyen,
Circuit Judges, and Dana L. Christensen,** District Judge.
OPINION
NGUYEN, Circuit Judge:
The State of California, like forty-seven other States
and the District of Columbia, employs a winner-take-all
(“WTA”) approach to selecting its presidential electors.
Under this system, the State awards all of its electors to
the political party of the popular vote winner in the State,
regardless of relative vote share. Appellants, a coalition of
voters in California, appeal the district court’s dismissal
of their lawsuit. They allege that WTA violates the equal
protection and First Amendment rights of California
residents who, like them, usually do not vote for the State’s
popular vote winner and thus enjoy no representation
among the State’s electors.
Appellants’ equal protection challenge is foreclosed by
Williams v. Virginia State Board of Elections, a decadesThe Honorable Dana L. Christensen, United States District
Judge for the District of Montana, sitting by designation.
**

3a
Appendix A
old opinion that was summarily affirmed by the U.S.
Supreme Court. 288 F. Supp. 622 (E.D. Va. 1968), aff’d,
393 U.S. 320, 89 S. Ct. 555, 21 L. Ed. 2d 516 (1969), reh’g
denied, 393 U.S. 1112, 89 S. Ct. 857, 21 L. Ed. 2d 813 (1969)
(“Williams”). We join our three sister circuits to have
considered the issue 1 in holding that, under Williams,
a State’s use of WTA to select its presidential electors
is consistent with the Constitution’s guarantee of equal
protection. We also conclude that Appellants have failed
to plausibly allege that California’s use of WTA to select
presidential electors violates the First Amendment. We
therefore affirm.
I.
A.
Article II of the U.S. Constitution provides that
“[e]ach State shall appoint, in such Manner as the
Legislature thereof may direct, a Number of Electors,
equal to the whole Number of Senators and Representatives
to which the State may be entitled in the Congress . . . .”
U.S. Const. art. II, § 1, cl. 2. “Article II, § 1’s appointments
power gives the States far-reaching authority over
presidential electors, absent some other constitutional
constraint.” Chiafalo v. Washington, 140 S. Ct. 2316, 2324,
207 L. Ed. 2d 761 (2020). The Twelfth Amendment adds
that the electors “shall meet in their respective states and
vote by ballot for President and Vice-President . . . .” U.S.
Const. amend. XII.
1. Baten v. McMaster, 967 F.3d 345 (4th Cir. 2020); Lyman v.
Baker, 954 F.3d 351 (1st Cir. 2020); League of United Latin Am.
Citizens v. Abbott, 951 F.3d 311 (5th Cir. 2020).

4a
Appendix A
California, like all but two states, 2 awards all of its
electors to the party of the candidate who wins the popular
vote in the State. See California Elections Code §§ 6901,
6902, 6906, 15400, 15452, 15505. We are asked to decide
whether this method for selecting electors—WTA—is
constitutional.
B.
Appellants are self-identified Republican and thirdparty voters in California. They sued then-Governor of
California Jerry Brown and California Secretary of State
Alex Padilla (collectively “California” or “the State”),
contending that the State’s use of WTA infringes their
“constitutional right to an equal vote in the presidential
election.” Their core theory is that WTA “counts votes
for a losing presidential candidate . . . only to discard
them in determining [e]lectors who cast votes directly
for the presidency.” They allege that in so doing, WTA
“unconstitutionally magnifies the votes of a bare plurality
of voters by translating those votes into an entire slate
of” electors “while, at the same time, the votes cast for
all other candidates are given no effect.” This, according
to Appellants, violates the principle of “one person, one
vote.” Appellants further contend that WTA burdens
various First Amendment rights.
The district court dismissed Appellants’ complaint with
prejudice, holding that their equal protection challenge
2. In Maine and Nebraska, “two electors go to the winner of
the statewide vote and one goes to the winner of each congressional
district.” Chiafalo, 140 S. Ct. at 2321 n.1.

5a
Appendix A
was “foreclosed by” McPherson v. Blacker, 146 U.S. 1, 13
S. Ct. 3, 36 L. Ed. 869 (1892), and Williams. Williams, it
noted, held that “a state’s selection of presidential electors
on a ‘winner take all basis’ does not violate the ‘one person,
one vote’ principle of the Fourteenth Amendment because
‘[i]n the selection of electors, the [winner take all] rule does
not in any way denigrate the power of one citizen’s ballot
and heighten the influence of another’s vote.’” The district
court further determined that Williams also foreclosed
Appellants’ First Amendment claims.
II.
We review de novo the district court’s dismissal of a
complaint alleging a violation of constitutional rights. See
United States v. Adams, 388 F.3d 708, 710 (9th Cir. 2004).
To survive a Federal Rule of Civil Procedure 12(b)(6)
motion to dismiss, the complaint must “contain sufficient
factual matter, accepted as true, to state a claim to relief
that is plausible on its face.” Sheppard v. David Evans
& Assoc., 694 F.3d 1045, 1048 (9th Cir. 2012) (citation
omitted).
III.
A.
The Constitution does not prescribe how States
select electors. To the contrary, it “conceded plenary
power to the state legislatures in the matter . . . .”
McPherson, 146 U.S. at 35; see also id. at 27 (explaining
the Constitution “recognizes that the people act through

6a
Appendix A
their representatives in the legislature, and leaves it to the
legislature exclusively to define the method of effecting the
object”). But a State’s method for selecting electors must
comport with equal protection principles. Chiafalo, 140 S.
Ct. at 2324 n.4; cf. McPherson, 146 U.S. at 40 (concluding
that “no discrimination is made” in a system for selecting
electors where “each citizen has an equal right to vote”);
see also Williams v. Rhodes, 393 U.S. 23, 29, 89 S. Ct. 5,
21 L. Ed. 2d 24 (1968) (“Rhodes”).
Equal protection requires, “as nearly as is practicable,”
that one person’s vote “be worth as much as another’s.”
Wesberry v. Sanders, 376 U.S 1, 7-8, 84 S. Ct. 526, 11 L.
Ed. 2d 481 (1964); see also Gray v. Sanders, 372 U.S. 368,
381, 83 S. Ct. 801, 9 L. Ed. 2d 821 (1963) (describing the
principle of “one person, one vote”). However, “[i]t hardly
follows . . . that a person is entitled to have his political
party achieve representation in some way commensurate
to its share of statewide support.” Rucho v. Common
Cause, 139 S. Ct. 2484, 2501, 204 L. Ed. 2d 931 (2019). 3
“[E]ach vote must carry equal weight”—but “[t]hat
requirement does not extend to political parties.” Id. That
is, it is not required “that each party . . . be influential in
proportion to its number of supporters.” Id.
B.
Over a century ago, the Supreme Court considered an
equal protection challenge to a Michigan law providing for
3. Rucho involved the application of the “one-person, one-vote”
principle to partisan gerrymandering claims. Although factually
inapposite, the case offers an instructive explication of the “oneperson, one-vote” principle.

7a
Appendix A
the selection of electors by district. McPherson, 146 U.S.
at 24. The Court rejected the challenge, id. at 27-36, but
it did not opine on any other system for selecting electors,
see Williams, 288 F. Supp. at 626 (explaining McPherson
“did no[] more than hold permissible and valid Michigan’s
determination to select electors by districts”). McPherson
thus does not weigh heavily in our analysis.
But Williams does. The plaintiffs in Williams
challenged a Virginia law providing that “all of the
State’s electors [were to be] collectively chosen . . . by
the greatest number of votes cast throughout the entire
State . . . .” Id. at 623. The ballot included “the name of
each political party and the nominees thereof for President
and Vice President,” as well as “the names of [each] party’s
elector candidates . . . .” It “permit[ted] a voter to vote
only for one or another political party, and thus for the
party’s nominees for President and Vice President.” And
a “vote cast [for a given party] . . . constitute[d] . . . one
vote for each of the 12 electors listed thereon under the
name of th[at] party and its nominees.” Thus, all of the
State’s electors were selected—as a group—according
to the popular vote in the State, and all of the electors
represented one political party.
The plaintiffs argued that the law was unconstitutional
“because it g[ave] the choice of all of the electors to the
statewide plurality of those voting in the election—‘winner
take all’—and accord[ed] no representation among the
electors to the minority of the voters.” Id. This “general
ticket” method, according to the plaintiffs, “violate[d] the
‘one-person, one-vote’ principle of the Equal Protection
Clause . . . .” Id. at 624.

8a
Appendix A
The three-judge panel disagreed. Virginia’s use of
WTA did not “come within the brand of” the Supreme
Court’s “one-person, one-vote” decisions because the
“system [wa]s but another form of the unit rule,” which is
not “offensive to the Constitution.” Id. at 626-27 (noting the
election of the president by the House when no majority
is obtained in the electoral college is by unit); see also
id. at 628 (quoting Wesberry, 376 U.S at 7) (explaining it
had previously held constitutional the practice of electing
members of the House as a unit, whereby “two or more or
all are running at large, that is statewide”).
The court acknowledged “possible objectionable
results” from the use of WTA, including that “as much as
49 percent of a State’s voters may see the portion of its
electoral votes attributable to them cast for a candidate
whom they oppose,” thus “wast[ing]” their votes. Id. at 627.
But any “deprivations imposed by the unit rule” did not
“equate . . . with the denial of privileges outlawed by the
one-person, one-vote doctrine or banned by Constitutional
mandates of protection”:
In the selection of electors the rule does not in
any way denigrate the power of one citizen’s
ballot and heighten the influence of another’s
vote. Admittedly, once the electoral slate is
chosen, it speaks only for the element with
the largest number of votes. This in a sense is
discrimination against the minority voters, but
in a democratic society the majority must rule,
unless the discrimination is invidious. No such
evil has been made manifest here. Every citizen

9a
Appendix A
is offered equal suffrage and no deprivation of
the franchise is suffered by anyone.
Id.
The court also explained that Virginia’s use of WTA
was “grounded on what ha[d] historically been deemed to
her best interests in the workings of the electoral college.”
Id. at 628. Faced with a choice of “appointing electors in
a manner [that would] fairly reflect the popular vote” or
“allow[ing] the majority to rule and thereby maximize the
impact of Virginia’s 12 electoral votes,” Virginia chose
the latter. Id. And in the court’s view, the decision was “[]
not . . . unwise[].” Id. In sum, the Virginia law “d[id] not
disserve the Constitution . . . .” Id. at 629.
Williams’s applicability is obvious: like Virginia
did, California awards all of its electors to the party of
the candidate who wins the popular vote in the State.
Appellants raise an equal protection challenge, contending
WTA “discard[s]” the “votes for a losing presidential
candidate” in the selection of electors. Cf. id. at 627
(considering the argument that WTA in Virginia “wasted”
the votes “cast for a loser”). Appellants concede that
Williams “addressed an argument similar to [Appellants’]
vote dilution argument here.”
That Williams was affirmed by the Supreme Court
in summary fashion does not obviate its binding effect
here, as summary affirmances “prevent lower courts
from coming to opposite conclusions on the precise issues
presented and necessarily decided.” Mandel v. Bradley,

10a
Appendix A
432 U.S. 173, 176, 97 S. Ct. 2238, 53 L. Ed. 2d 199 (1977);
United States v. Blaine County, Montana, 363 F.3d 897,
904 (9th Cir. 2004) (explaining the “Supreme Court’s
summary affirmances bind lower courts”). Indeed, after
the Court summarily affirms a lower court decision
declaring a law unconstitutional, “other courts [are] not
free to conclude that the [law] invalidated [is] nevertheless
constitutional.” Mandel, 432 U.S. at 176. The same is
surely true, too, for laws declared to be constitutional.
The Supreme Court’s summary affirmance of Williams
thus controls—unless “subsequent developments suggest
otherwise” or this case does not involve the “precise issues
presented and necessarily decided” in Williams. Id.;
Blaine County, 363 F.3d at 904. Appellants argue that
both exceptions apply. We disagree.
C.
1.
Appellants argue that post-Williams cases involving
multimember districts raise doubts regarding Williams’s
continued viability. 4 They suggest that California’s
presidential election can be viewed as an election for fiftyfive electors who constitute a multimember (state-level)
body. And under this view, according to Appellants, WTA
violates Appellants’ equal protection rights by diluting
their votes.
4. A multimember district is a district in which multiple
candidates are elected to represent the district, usually based on
plurality voting.

11a
Appendix A
Appellants rely on White v. Regester, a case in which
the Supreme Court affirmed a judgment invalidating
certain multimember districts, for the proposition that a
state cannot “cancel out or minimize the voting strength”
of minority voters. 412 U.S. 755, 765, 93 S. Ct. 2332, 37 L.
Ed. 2d 314 (1973); see also Burns v. Richardson, 384 U.S.
73, 88, 86 S. Ct. 1286, 16 L. Ed. 2d 376 (1966).
But Appellants oversimplify the standard. In White,
the Court explained that “multimember districts are
not per se unconstitutional . . . .” 412 U.S. at 765. Rather,
they are unconstitutional only when “used invidiously to
cancel out or minimize the voting strength” of a minority
group. Id. (emphasis added). Further, “it is not enough that
the [minority] group . . . has not had legislative seats in
proportion to its voting potential.” Id. at 765-66. The group
must “produce evidence . . . that the political processes
leading to nomination and election were not equally open
to participation by the group”—“that its members had
less opportunity than did other residents in the district
to participate in the political processes and to elect
legislators of their choice.” 5 Id. at 766 (emphases added).
This case does not directly fall within the ambit
of White because Appellants have not alleged invidious
discrimination. What they have alleged is that their
5. The Court relied on a plethora of findings regarding “the
history of official racial discrimination in Texas.” Id. at 766-69 (noting
that “Mexican-Americans in Texas . . . had long ‘suffered from,
and continue[d] to suffer from, the results and effects of invidious
discrimination and treatment in the fields of education, employment,
economics, health, politics and others’” (citation omitted)).

12a
Appendix A
votes are impermissibly diluted because they do not
enjoy proportional representation among the State’s
electors—but that is “not enough.” Id. at 765-66; see
also Whitcomb v. Chavis, 403 U.S. 124, 160, 91 S. Ct.
1858, 29 L. Ed. 2d 363 (1971) (“[W]e are unprepared to
hold that district-based elections decided by plurality
vote are unconstitutional in . . . multi-member districts
simply because the supporters of losing candidates have
no legislative seats assigned to them.”).
Further, any discrimination inherent in WTA is not
invidious because “[e]very citizen is offered equal suffrage
and no deprivation of the franchise is suffered by anyone.”
Williams, 288 F. Supp. at 627. Thus, even if the selection
of California’s electors could be framed as the election of
a multimember district and post-Williams multimember
district cases constituted a “subsequent development,” 6
the cases would not undermine Williams.
Another purported “subsequent development” is that
federal law has changed since Williams regarding “unit”
voting for members of the House. As discussed above,
see supra Part III.B., in Wesberry the Supreme Court
6. We do not generally “conclude [the Supreme Court’s] more
recent cases have, by implication, overruled an earlier precedent.”
Agostini v. Felton, 521 U.S. 203, 237, 117 S. Ct. 1997, 138 L. Ed. 2d
391 (1997). If Court precedent “has direct application in a case, yet
appears to rest on reasons rejected in some other line of decisions,
[we] should follow the case which directly controls, leaving to [the
Supreme] Court the prerogative of overruling its own decisions.” Id.
(quoting Rodriguez de Quijas v. Shearson/Am. Express, Inc., 490
U.S. 477, 484, 109 S. Ct. 1917, 104 L. Ed. 2d 526 (1989)).

13a
Appendix A
affirmed the constitutionality of voting for representatives
by unit. Williams, 288 F. Supp. at 628. The Williams
court found it “notable that Congress . . . ha[d] [also] . . .
countenanced” the practice. Id. Appellants point out that
Congress has since changed the law to require that states
use single-member districts for congressional elections.
See 2 U.S.C. § 2c. This is correct but the change in law is
immaterial to the constitutionality of unit voting.
The last “subsequent development” is a purported
doctrinal shift toward eliminating the requirement of
invidiousness. Appellants argue the Supreme Court has
“clarified that, although invidiousness may be relevant to
certain challenges, . . . there are electoral systems that
are sufficiently arbitrary in their treatment of voters
that no showing of invidiousness is required.” See Bush
v. Gore, 531 U.S. 98, 104-05, 121 S. Ct. 525, 148 L. Ed. 2d
388 (2000)). The Bush Court found an equal protection
violation due to “arbitrary and disparate treatment”; it did
not discuss whether the discrimination was “invidious.” Id.
We are not persuaded. First, the precedential value
of Bush is limited. See id. at 109 (“Our consideration
is limited to the present circumstances . . . .”). Second,
it is unlikely the Court would have silently changed a
fundamental feature of its voting rights equal protection
jurisprudence. See Shalala v. Ill. Council on Long Term
Care, Inc., 529 U.S. 1, 18, 120 S. Ct. 1084, 146 L. Ed. 2d
1 (2000). Indeed, even before Williams the Court noted
that equal protection requires “faithful adherence to a
plan of population-based representation, with such minor
deviations only as may occur in recognizing certain
factors that are free from any taint of arbitrariness or

14a
Appendix A
discrimination.” Roman v. Sincock, 377 U.S. 695, 710, 84 S.
Ct. 1449, 12 L. Ed. 2d 620 (1964) (emphasis added). Third,
Williams’s approval of WTA was based on a finding of
non-invidiousness and a finding of non-arbitrariness. See
Williams, 288 F. Supp. at 628 (characterizing Virginia’s
use of WTA as “historically . . . deemed to [be in the
State’s] best interests” and “[]not . . . unwise[]”).
Appellants also identify factual differences between
Williams and this case, but the differences are immaterial.
In Virginia, Appellants emphasize, electors’ names were
on the ballot; by contrast, the California ballot today lists
only the candidates and their parties. But in Virginia
the electors’ names were associated with candidates and
political parties, and the inclusion of such names on the
ballot does not appear to have affected the court’s analysis.
Further, Appellants note that, unlike in California today,
the electors in Virginia had no legal obligation to support
their parties’ nominees. But the distinction is irrelevant:
how electors vote is different from how they are selected,
cf. Chiafalo, 140 S. Ct. at 2321-22, and, in any event,
Virginia’s electors voted—as would be expected—for their
parties’ nominees, Williams, 288 F. Supp. at 626 (noting
that in the 1960 election, Virginia voters split 52.4% to
47% but the Republican nominee “was credited with 100%
[o]f Virginia’s electoral votes”). California’s current
system for selecting electors is thus substantively identical
to Virginia’s at the time of Williams.
We thus hold, as three of our sister circuits recently
likewise have held, that Williams controls and forecloses
Appellants’ equal protection claim. Baten, 967 F.3d at
355-56 (following the reasoning of Williams in rejecting

15a
Appendix A
an identical equal protection claim because a summary
affirmance “prevent[s] lower courts from coming to
opposite conclusions on the precise issues presented and
necessarily decided by” the case summarily affirmed
(citation omitted)); Lyman, 954 F.3d at 366 (concluding
that Williams “require[d] the dismissal” of an identical
equal protection claim because it “decide[d] the core equal
protection issue presented”); League of United Latin Am.
Citizens, 951 F.3d at 315-17 (characterizing Williams as
a “giant barrier stand[ing] in the[] way” of an identical
equal protection claim).
2.
Appellants also argue that Gray, a Supreme Court
case that predated Williams, controls rather than
Williams. In Gray, the Supreme Court struck down the
Georgia Democratic Party’s (“GDP”) primary election
system. The system was based on “county unit[s]”: the
GDP assigned each county a certain number of units,
and the candidate who received the most votes in a given
county was awarded all of the county’s units. 7 Gray, 372
7. In other contexts, “general ticket” or “unit” voting refers to
a single bloc (such as the group of electors in Williams). In Gray,
each county was assigned multiple “units,” each of which functioned
like an elector.
Originally, each county received two units for each of its
representatives in Georgia’s House of the General Assembly. Gray,
372 U.S. at 371. Later, the law was amended to resemble a “bracket
system,” whereby counties were allotted units in rough proportion
with their populations. For example, counties with 0 to 15,000

16a
Appendix A
U.S. at 370-71. The effect of the system was to weight
counties disproportionately. Id. at 373 (explaining that
counties constituting one-third of the State’s population
enjoyed a “clear majority of county units”); see also id.
at 379 (explaining that the system “weight[ed] the rural
vote more heavily than the urban vote and weight[ed]
some small rural counties heavier than other larger rural
counties”). The Court held the system unconstitutional,
id. at 381, and then further specified in a footnote that the
district court had properly enjoined the use of the system,
even in its amended form:
The county unit system, even in its amended
form[,] . . . would allow the candidate winning
the popular vote in the county to have the entire
unit vote of that county. Hence the weighting
of votes would continue, even if unit votes were
allocated strictly in proportion to population.
Thus if a candidate won 6,000 of 10,000 votes
in a particular county, he would get the entire
unit vote, the 4,000 other votes for a different
candidate being worth nothing and being
counted only for the purpose of being discarded.
Id. at 381 n.12.
Appellants read Gray as having two distinct
holdings: first, the disproportionate allocation of
units was unconstitutional; and second, the system
residents were allotted two units, with an additional unit allotted
for the next 5,000 people. Id. at 372. The Court rejected both forms.
Id. at 381 & n.12.

17a
Appendix A
would be unconstitutional even if units were allocated
proportionately because the winner of a county would be
awarded all of the county’s units.
Appellants focus on the second holding, arguing
the system Gray described is similar to California’s.
Appellants contend that in California, just as in Gray,
the presidential election is “conducted in two steps: at the
first step, each state receives a set number of electoral
votes and conducts an election to allocate those votes; and
at the second step, those votes are tallied to determine
the President.” And just as in Gray, a losing candidate’s
votes are “discarded” in California before they can affect
the election. Appellants further argue that this “twostep” structure is distinguishable from the structure
in Williams, which comprised a single step: a “vote for
[e]lectors.”
We reject Appellants’ attempt to distinguish Williams
by way of analogy to Gray. WTA in California is, for
the reasons discussed above, materially identical to the
system in Williams—and Williams was decided after
Gray. 8 There is little to support Appellants’ argument
that California’s system is similar to Gray’s (a purported
“two-step” system) but different from Williams’s (a
purported “one-step” system). Nothing in Gray supports
such a reading and, more importantly, the system in
8. Williams also specifically rejected a “one-person, one-vote”
argument based on Gray. Williams, 288 F. Supp. at 626. Although
Williams did not discuss Gray’s footnote 12, the holding in that
footnote would have been the one (of the purported two holdings in
Gray) more relevant to Williams.

18a
Appendix A
Williams was essentially the same as those in California
and Gray—whether characterized as one-step or twostep.9 Just as in Gray and in California today, the system
in Williams involved Virginia’s “receiv[ing] a set number
of electoral votes and conduct[ing] an election to allocate
those votes,” and then “tall[ying]” the votes “to determine
the President.”
Further, the analogy to Gray falls short. 10 Gray’s
central concern was the presence of geog raphic
discrimination in the GDP’s primary election system.
Gray, 372 U.S. at 379. That concern extended to Gray’s
footnote 12:
[I]n [Gray], . . . we h[e]ld that the county-unit
system would have been defective even if unit
votes were allocated strictly in proportion to
population. We noted that if a candidate received
60% of the votes cast in a particular county he
would receive that county’s entire unit vote,
the 40% cast for the other candidates being
9. Appellants’ purported distinction between Williams’s WTA
system, on the one hand, and Gray’s and California’s, on the other, is
that Williams “rest[ed] on the premise that voters vote for [e]lectors”
because the electors’ names were on the ballot and the electors were
not required to vote for a particular candidate. Those distinctions
were not material to the court’s reasoning in Williams, nor do they
meaningfully distinguish Williams’s system from California’s.
10. We recently rejected an attempt to “take a single sentence
in [Gray] . . . and transform it into a new voting rights principle . . . .”
Pub. Integrity All., Inc. v. City of Tucson, 836 F.3d 1019, 1026 (9th
Cir. 2016) (en banc).

19a
Appendix A
discarded. The defect, however, continued to be
geographic discrimination. Votes for the losing
candidates were discarded solely because of
the county where the votes were cast. Indeed,
votes for the winning candidate in a county were
likewise devalued, because all marginal votes
for him would be discarded and would have no
impact on the statewide total.
Gordon v. Lance, 403 U.S. 1, 4-5, 91 S. Ct. 1889, 29 L. Ed.
2d 273 (1971) (citing Gray, 372 U.S. at 381 n.12) (emphasis
added). We have similarly interpreted Gray. See Angle v.
Miller, 673 F.3d 1122, 1129-30 (9th Cir. 2012) (citing Gray,
372 U.S. at 381 n.12) (“Gray and Gordon suggest that, with
respect to a statewide election, a state must count votes
on a statewide, rather than a district-by-district, basis.
Doing otherwise devalues votes based on where voters
happen to live.”).
No c o mp a r a bl e c o n c e r n a b o u t g e o g r a p h i c
discrimination exists here. Appellants claim their votes
are “discarded because they live in California, and it
is the California Democratic Party that benefits and
takes advantage of a two-step election involving defined
geographical units to consolidate votes.” But the Court’s
concern in Gray was that votes in Georgia were treated
differently based on the voters’ location within the state;
in California, all votes are treated equally regardless of
where they are cast.

20a
Appendix A
IV.
Appellants allege that a WTA system burdens their
First Amendment rights to cast their votes effectively,
to associate with like-minded voters across the State,
and to petition their government and associate with the
candidates of their choice.
No First Amendment challenge was brought in
Williams. Because Appellants’ First Amendment claims
do not implicate the “precise issues presented and
necessarily decided” in Williams, Mandel, 432 U.S. at 176,
Williams does not control them. But we may affirm on any
ground supported by the record, ASARCO, LLC v. Union
Pacific Railroad Co., 765 F.3d 999, 1004 (9th Cir. 2014),
and, because Appellants do not state a claim, we affirm.
A.
“[E]ach and every citizen has an inalienable right to full
and effective participation in the political process[] . . . .”
Reynolds v. Sims, 377 U.S. 533, 565, 84 S. Ct. 1362, 12 L.
Ed. 2d 506 (1964). That includes the right to “cast [one’s]
votes effectively,” which requires that no voter be “denied
an opportunity to cast a ballot at the same time and with
the same degree of choice among candidates available to
other voters.” Dudum v. Arntz, 640 F.3d 1098, 1106, 1109
(9th Cir. 2011) (citation omitted).
Appellants go further, asserting that their right to
full and effective participation precludes the “diluting and
discarding” associated with WTA. But Appellants offer no

21a
Appendix A
support for stretching this right beyond its plain meaning
and established precedents. 11 Because Appellants can
participate fully in California’s presidential election,
including voting for their preferred candidates, their right
to cast an effective vote is not burdened.
B.
“The freedom of association protected by the First
and Fourteenth Amendments includes partisan political
organization. The right to associate with the political
party of one’s choice is an integral part of this basic
constitutional freedom.” Tashjian v. Republican Party of
Connecticut, 479 U.S. 208, 214, 107 S. Ct. 544, 93 L. Ed.
2d 514 (1986) (citations omitted).
According to Appellants, WTA burdens their right
to “associate with like-minded voters” by “distort[ing]
the electoral process”: “those who do not support the
Democratic candidate in California have little reason to
11. Citing Rhodes, Appellants argue that California’s use
of WTA “removes their ‘basic incentive’ for participating in the
presidential election at all.” But in Rhodes, Justice Harlan decried a
statutory scheme that denied voters “any opportunity to participate
in the procedure by which the President is selected.” Rhodes, 393
U.S. at 41 (Harlan, J., concurring). Here, by contrast, Appellants have
every opportunity to participate in the State’s presidential election.
Another case cited by Appellants, Tashjian v. Republican Party
of Connecticut, 479 U.S. 208, 216, 107 S. Ct. 544, 93 L. Ed. 2d 514
(1986), held that a statute restricting a political party’s ability to open
its primary to non-members “limit[ed] the [p]arty’s associational
opportunities.”

22a
Appendix A
drum up support for a candidate who will receive zero
electoral votes . . . .” In these types of cases, the Supreme
Court has “focused on the [challenged] requirements
themselves, and not on the manner in which political
actors function under those requirements.” N.Y. State Bd.
of Elections v. Lopez Torres, 552 U.S. 196, 205, 128 S. Ct.
791, 169 L. Ed. 2d 665 (2008). And WTA does not limit
Appellants’ ability to associate with like-minded voters.
At base, Appellants contend they are not incentivized to
associate, not that they cannot. 12
C.
The right to petition “protects the right of individuals
to appeal to courts and other forums established by the
government for resolution of legal disputes.” Borough of
Duryea, Pa. v. Guarnieri, 564 U.S. 379, 387, 131 S. Ct.
2488, 180 L. Ed. 2d 408 (2011). More generally, it “allows
citizens to express their ideas, hopes, and concerns to
their government and their elected representatives.” Id.
at 388. But this right is uni-directional; it does not require
12. Gill v. Whitford, 138 S. Ct. 1916, 201 L. Ed. 2d 313
(2018), cited by Appellants, is inapposite. In Gill, Justice Kagan
articulated a theory of associational harm in the context of partisan
gerrymandering. She posited that a partisan gerrymander may
infringe the associational rights of the members of a “disfavored
party” by “depriv[ing] [them] of their natural political strength,”
thus creating challenges with respect to “fundraising, registering
voters, attracting volunteers, generating support from independents,
and recruiting candidates.” Id. at 1938-39 (Kagan, J., concurring).
But partisan gerrymandering is different than selecting electors
with WTA; only the former is closely connected to the problems with
party infrastructure that Justice Kagan identified.

23a
Appendix A
government officials or politicians to respond, or even
listen, to citizens. Smith v. Ark. State Highway Emps.,
Local 1315, 441 U.S. 463, 465, 99 S. Ct. 1826, 60 L. Ed.
2d 360 (1979) (holding that “the First Amendment does
not impose any affirmative obligation on the government
to listen [or] to respond,” nor does it “guarantee that a
speech will persuade or that advocacy will be effective”
(quotation marks and citation omitted)).
Appellants theorize that WTA causes presidential
candidates to “ignore California’s minority voters in each
election cycle,” which “undermines the core relationship . . .
between constituents and their representatives.” But
Appellants again mistakenly focus on the incentives that
flow from WTA. The issue is whether WTA burdens
Appellants by limiting their ability to petition, not whether
WTA changes politicians’ behaviors. See Lopez Torres,
552 U.S. at 205. Appellants do not allege any restrictions
on their ability to petition.
D.
Even assuming Appellants had plausibly alleged
the State’s use of WTA imposed some minimal burden,
their claims would still fail. Under Burdick v. Takushi,
504 U.S. 428, 112 S. Ct. 2059, 119 L. Ed. 2d 245 (1992), a
“flexible standard” applies to laws regulating the right
to vote: we “must weigh ‘the character and magnitude
of the asserted injury’ . . . against ‘the precise interests
put forward by the State as justifications for the burden
imposed by its rule,’ taking into consideration ‘the extent
to which those interests make it necessary to burden the

24a
Appendix A
plaintiff’s rights.’” Id. at 434 (citations omitted). “[W]hen
a state election law provision imposes only ‘reasonable,
nondiscriminatory restrictions[,]’ . . . ‘the State’s
important regulatory interests are generally sufficient to
justify’ the restrictions.” Id. (citations omitted).
Any burden is—at most—minimal, and California
has identified an important interest: “maximiz[ing]
the impact of the State’s electors within the Electoral
College.” WTA increases the voting power of the State
within the electoral college, as all of its votes are cast in
support of one candidate. And it also protects California
against the use of WTA by the forty-seven other States
that have adopted it. Cf. Williams, 288 F. Supp. at 626
(explaining that Thomas Jefferson recognized the merit of
“protect[ing] his State against the use of [WTA] by other
States” and relied on this justification in advising Virginia
to adopt WTA, despite his preference for district-based
selection of electors).
Appellants characterize California’s interest as
“illegitimate and incorrect.” It is purportedly “illegitimate”
because “WTA does not maximize the power of the State
as a whole; instead, it maximizes the voting strength of
a plurality of California voters.” But Appellants conflate
the intrastate and interstate effects of WTA; WTA
maximizes the State’s interstate power, and is thus not
a “restatement of the very burden [Appellants] have
identified.” The interest is allegedly “incorrect” because
WTA results in “presidential candidates generally
ignor[ing] California voters,” which “subverts the power
of the State.” Appellants again misconstrue the interest;

25a
Appendix A
it is to maximize the State’s power in the electoral college,
not to attract campaigns.
***
Because Appellants fail to state a claim under either of
their constitutional theories, we affirm the district court’s
dismissal of the complaint with prejudice.
AFFIRMED.

26a
B THE UNITED
APPENDIX B —Appendix
ORDER OF
STATES DISTRICT COURT FOR THE CENTRAL
DISTRICT OF CALIFORNIA, WESTERN
DIVISION, DATED SEPTEMBER 21, 2018
UNITED STATES DISTRICT COURT
FOR THE CENTRAL DISTRICT OF CALIFORNIA
WESTERN DIVISION
Case No. 2:18-cv-001422-CBM-ASx
PAUL RODRIGUEZ; ROCKY CHAVEZ;
LEAGUE OF UNITED LATIN AMERICAN
CITIZENS; and CALIFORNIA LEAGUE OF
UNITED LATIN AMERICAN CITIZENS,
Plaintiffs,
v.
JERRY BROWN, IN HIS OFFICIAL CAPACITY
AS GOVERNOR OF THE STATE OF CALIFORNIA;
AND ALEX PADILLA, IN HIS OFFICIAL
CAPACITY AS SECRETARY OF STATE
OF THE STATE OF CALIFORNIA,
Defendants.
ORDER RE: DEFENDANTS’ MOTION
TO DISMISS THE COMPLAINT FOR
DECLARATORY AND INJUNCTIVE RELIEF
The matter before the Court is Defendants Jerry
Brown and Alex Padilla’s (collectively, “Defendants’“)

27a
Appendix B
Motion To Dismiss the Complaint For Declaratory and
Injunctive Relief pursuant to Federal Rules of Civil
Procedure 12(b)(6) and 12(b)(1). (Dkt. No. 57, the “Motion”.)
I. BACKGROUND
This action challenges California’s “winner-takeall” (“WTA”) method of selecting Presidential Electors.
The Complaint asserts two causes of action: (1) violation
of the Fourteenth Amendment’s “one person, one vote”
principle; and (2) violation of associational rights under the
First and Fourteenth Amendments. The Complaint seeks
a declaratory judgment that California’s WTA method
of selecting Electors violates the First and Fourteenth
Amendments to the United States Constitution; and an
order permanently enjoining the use of the WTA method
(or other non-representational methods, such as selection
by Congressional District vote) of selecting Electors in
presidential elections. (Compl., Prayer for relief ¶¶ 1.a-c.)
II. STATEMENT OF THE LAW
Federal Rule of Civil Procedure 12(b)(6) allows a court
to dismiss a complaint for “failure to state a claim upon
which relief can be granted.” Dismissal of a complaint can
be based on either a lack of a cognizable legal theory or
the absence of sufficient facts alleged under a cognizable
legal theory. Balistreri v. Pacifica Police Dep’t, 901 F.2d
696, 699 (9th Cir. 1990). On a motion to dismiss for failure
to state a claim, courts accept as true all well-pleaded
allegations of material fact and construes them in a light
most favorable to the non-moving party. Manzarek v. St.

28a
Appendix B
Paul Fire & Marine Ins. Co., 519 F.3d 1025, 1031-32 (9th
Cir. 2008). To survive a motion to dismiss, the complaint
“must contain sufficient factual matter, accepted as true,
to ‘state a claim to relief that is plausible on its face.’“
Ashcroft v. Iqbal, 556 U.S. 662, 663, 129 S. Ct. 1937,
173 L. Ed. 2d 868, (2009) (quoting Bell Atlantic Corp. v.
Twombly, 550 U.S. 544, 570, 127 S. Ct. 1955, 167 L. Ed. 2d
929 (2007)). If a complaint cannot be cured by additional
factual allegations, dismissal without leave to amend is
proper. Twombly, 550 U.S. at 555.
On a Rule 12(b)(1) motion to dismiss for lack of subject
matter jurisdiction, the party asserting jurisdiction bears
the burden of proof that jurisdiction exists. Sopak v.
Northern Mountain Helicopter Serv., 52 F.3d 817, 818 (9th
Cir. 1995). A motion under Rule 12(b)(1) may challenge the
court’s jurisdiction facially, based on the legal sufficiency
of the claim, or factually, based on the legal sufficiency of
the jurisdictional facts. White v. Lee, 227 F.3d 1214, 1242
(9th Cir. 2000).
III. DISCUSSION
A. Request for Judicial Notice
Defendants request that the Court take judicial notice of:
1.

Exhibit 1: Complaint filed in Lyman v. Baker,
No. 1:18-cv-10327 (D. Mass. Feb. 21, 2018);

2.

Exhibit 2: Complaint filed in Baten v. McMaster,
No. 2:18-cv-00510 (D.S.C. Feb. 21, 2018);

29a
Appendix B
3.

Exhibit 3: Complaint filed in League of United
Latin American Citizens v. Abbott, No. 5:18-cv00175 (W.D. Tex. Feb. 21, 2018); and

4.

Exhibit 4: Motion to dismiss filed in League of
United Latin American Citizens v. Abbott, No.
5:18-cv-00175 (W.D. Tex., Apr. 9, 2018).

(Dkt. No. 57-1.) The Court GRANTS Defendants’ request
to take judicial notice of the fact that the above-referenced
pleadings were filed, but not for the truth of the contents
therein. See Fed. R. Evid. 201; Lee v. City of Los Angeles,
250 F.3d 668, 689-90 (9th Cir. 2001).
B. “One Person, One Vote” / Equal Protection —
Fourteenth Amendment
The Complaint alleges California’s WTA method of
selecting Electors whereby the whereby the political party
of the leading candidate among California’s voters selects
every Elector results in a “cancellation” of the vote of other
California citizens and renders their vote “meaningless,”
in violation of citizens’ constitutional right to an equal vote
in the presidential election. (Compl. ¶¶ 2-4, 7.) Plaintiffs
argue California’s WTA system therefore violates the “one
person, one vote” principle “by discarding the votes of
millions of Californians in each election cycle before those
votes can affect the actual Presidential race” because
votes which do not support the plurality candidate receive
no Electoral College votes.
Plaintiffs’ Fourteenth Amendment challenge to
California’s WTA method based on the “one person, one

30a
Appendix B
vote” principle of the equal protection clause is foreclosed
by the Supreme Court’s decisions in McPherson v. Blacker,
146 U.S. 1, 13 S. Ct. 3, 36 L. Ed. 869 (1892), and Williams v.
Virginia State Board of Elections, Williams, 288 F. Supp.
622, 629 (E.D. Va. 1968) (“Virginia’s [winner-take-all]
design for selecting presidential electors does not disserve
the Constitution”), aff’d, 393 U.S. 320, 89 S. Ct. 555, 21
L. Ed. 2d 516 (1969). As stated by the Supreme Court in
McPherson: “If presidential electors . . . are elected in
districts where each citizen has an equal right to vote, the
same as any other citizen has, no discrimination is made.”
146 U.S. at 40. Here, Plaintiffs do not allege California
citizens do not have an equal right to vote for presidential
electors. Moreover, as recognized in Williams, which
was summarily affirmed by the Supreme Court, a state’s
selection of presidential electors on a “winner take all
basis” does not violate the “one person, one vote” principle
of the Fourteenth Amendment because “[i]n the selection
of electors, the [winner take all] rule does not in any way
denigrate the power of one citizen’s ballot and heighten
the influence of another’s vote.” 288 F. Supp. at 627.
Plaintiffs contend McPherson and Williams are
distinguishable because: (1) those cases were decided
during a time when Electors were the candidates listed
on the ballot and voters were voting for Electors, whereas
now the Presidential candidates are listed on the ballot
and voters are voting for the President; and (2) those
cases did not address whether “discarding of votes for the
President through the WTA method of allocating Electors
at an intermediate step in a two-step election violates the
Equal Protection Clause of the Fourteenth Amendment.”

31a
Appendix B
The Complaint alleges California voters do not vote for
Electors, but instead vote for the President in two steps:
first, California voters cast their votes for the President,
and second, California counts those votes and allocates to
the winning candidate all of its 55 Electors. (See Compl.
¶¶ 3, 13, 31, 37.)
However, Plaintiffs’ characterization of California’s
WTA method as a two-step process for voting for the
President is inconsistent with the Constitution. Article II
of Section 1 of the Constitution provides: “Each State shall
appoint, in such Manner as the Legislature thereof may
direct, a Number of Electors, equal to the whole Number
of Senators and Representatives to which the State may be
entitled in the Congress: but no Senator or Representative,
or Person holding an Office of Trust or Profit under the
United States, shall be appointed an Elector.” U.S. Const.
art. II, § 1. The Twelfth Amendment prescribes the
method Electors shall vote for the President. U.S. Const.
amend. XII; see also Cal. Elec. Code § 6906 (“The electors,
when convened, if both candidates are alive, shall vote by
ballot for that person for President and that person for
Vice President of the United States, who are, respectively,
the candidates of the political party which they represent,
one of whom, at least, is not an inhabitant of this state.”)
(Emphasis added.). Therefore, California voters vote for
Electors, and Electors vote for the President. See Bush
v. Gore, 531 U.S. 98, 104, 121 S. Ct. 525, 148 L. Ed. 2d
388 (2000) (“[T]he state legislature’s power to select the
manner for appointing electors is plenary; it may, if it so
chooses, select the electors itself, which indeed was the
manner used by state legislatures in several States for

32a
Appendix B
many years after the framing of our Constitution. History
has now favored the voter, and in each of the several States
the citizens themselves vote for Presidential electors.”)
(emphasis added); U.S. Const. amend. XII; Cal. Elec.
Code § 6906.1
The Court is bound by the Supreme Court’s decision in
McPherson and the Supreme Court’s summary affirmance
of Williams, 2 and thereby holds Plaintiff fails to state a
claim for violation of the equal protection clause under the
Fourteenth Amendment. 3
Plaintiffs contend the Supreme Court’s decision in
Gray v. Sanders, 372 U.S. 368, 83 S. Ct. 801, 9 L. Ed. 2d
1. See also Porter v. Bowen, 518 F.3d 1181, 1183-84 (9th Cir.
2008) (Kleinfeld, J., dissenting from denial of reh’g); Graham v. Fong
Eu, 403 F. Supp. 37, 46-47 (N.D. Cal. 1975), aff’d, 423 U.S. 1067, 96
S. Ct. 851, 47 L. Ed. 2d 80 (1976).
2. Summary affirmances “prevent lower courts from coming to
opposite conclusions on the precise issues presented and necessarily
decided by those actions.” Mandel v. Bradley, 432 U.S. 173, 176, 97
S. Ct. 2238, 53 L. Ed. 2d 199 (1977).
3. See Williams v. North Carolina, 2017 U.S. Dist. LEXIS
181115, 2017 WL 4936429 (W.D.N.C. Oct. 2, 2017), report and
recommendation adopted 2017 U.S. Dist. LEXIS 179833, 2017 WL
4935858 (W.D.N.C. Oct. 31, 2017); Conant v. Brown, 248 F. Supp.
3d 1014, 1024 (D. Or. 2017); Schweikert v. Herring, 2016 U.S. Dist.
LEXIS 166854, 2016 WL 7046845, at *2 (W.D. Va. Dec. 2, 2016);
New v. Pelosi, 2008 U.S. Dist. LEXIS 87447, 2008 WL 4755414, at
*2 (S.D.N.Y. 2008); Lowe v. Treen, 393 So. 2d 459, 461 (La. Ct. App.
1980); Trinsey v. United States, 2000 U.S. Dist. LEXIS 18387, 2000
WL 1871697, at *2 (E.D. Pa. Dec. 21, 2000); Hitson v. Baggett, 446
F. Supp. 674, 676 (M.D. Ala.), aff’d, 580 F.2d 1051 (5th Cir. 1978).

33a
Appendix B
821 (1963), “controls this case,” and requires a finding that
California’s WTA method is unconstitutional irrespective
of McPherson and Williams because California’s WTA
method “results in millions of Californians casting a ballot
for the President only to have their votes discarded before
they can actually affect the outcome.”
Gray, however, does not supersede Williams because
it was decided six years before Williams. Moreover, Gray
dealt with Georgia’s use of the county unit system for
election of Senators and the Seventeenth Amendment—it
did not involve a constitutional challenge to the use of the
Electoral College for the Presidential Election pursuant
to the Twelfth Amendment. In Gray, the Supreme Court
emphasized that the Seventeenth Amendment provides
the Senate of the United States must be composed of two
Senators from each State, elected “by the people,” and
therefore use of a winner take all method for electing
senators was unconstitutional. 372 U.S. at 380-81; see
also U.S. Const. amend. XVII. The Twelfth Amendment,
however, does not contain similar language regarding
the election of the President “by the people,” and instead
provides that “Electors shall meet in their respective
states and vote by ballot for President and VicePresident.” U.S. Const. amend. XII. The Supreme Court
recognized the distinction between elections of Senators
vs. Presidential elections in Gray, noting “[t]he inclusion
of the electoral college in the Constitution, as the result
of specific historical concerns, validated the collegiate
principle despite its inherent numerical inequality, but
implied nothing about the use of an analogous system by
a State in a statewide election. . . The only weighting of

34a
Appendix B
votes sanctioned by the Constitution concerns matters
of representation, such as the allocation of Senators
irrespective of population and the use of the electoral
college in the choice of a President.” Gray, 372 U.S. at
378, 380 (emphasis added).4
F u r t her more, G r ay i nvolved geog raph ic
discrimination, which Plaintiffs have not alleged in the
instant case. See id. at 380-81; Gordon v. Lance, 403 U.S.
1, 4-5, 91 S. Ct. 1889, 29 L. Ed. 2d 273 (1971). Here, the
Complaint does not allege California’s WTA method is
discriminatory because it values votes within a particular
geographic location within California over votes from
other geographic locations within the state. Therefore,
Gray’s holding regarding geographic discrimination is
not applicable here since no geographical discrimination
is alleged.
Accordingly, Plaintiffs’ equal protection claim under
the Fourth Amendment is foreclosed by McPherson and
Williams and fails as a matter of law.
C. Associational Rights — First & Fourteenth
Amendments
The Complaint also alleges California’s use of the
WTA method for selecting presidential electors “deprives
Plaintiffs of their First and Fourteenth Amendment
4. See also Pelosi, 2008 U.S. Dist. LEXIS 87447, 2008 WL
4755414, at *2; Trinsey, 2000 U.S. Dist. LEXIS 18387, 2000 WL
1871697, at *2; Penton v. Humphrey, 264 F. Supp. 250, 251 (S.D.
Miss. 1967).

35a
Appendix B
associational rights based solely on Plaintiffs’ political
association and expression of political views at the ballot
box” because it “discards Plaintiffs’ votes for President,
limiting Plaintiffs’ ability to express their political
preference” and “dilutes the power of the Republican and
third-party voters in California.” (Compl. ¶¶ 43, 44, 46.)
Because the Supreme Court summarily affirmed a
state’s use of the WTA method in selecting presidential
electors as constitutional in Williams, the Court
also grants Defendants’ Motion to dismiss Plaintiffs’
associational rights claim under the First and Fourteenth
Amendment. See Williams, 288 F. Supp. at 629 (“Virginia’s
[winner-take-all] design for selecting presidential electors
does not disserve the Constitution”), aff’d , 393 U.S. 320,
89 S. Ct. 555, 21 L. Ed. 2d 516 (1969); see also Schweikert,
2016 U.S. Dist. LEXIS 166854, 2016 WL 7046845, at *2. 5
D. Non-Justiciable Political Question
Defendants also contend the Complaint should be
dismissed pursuant to Rule 12(b)(1) for lack of jurisdiction
because Plaintiffs’ claims present “a nonjusticiable political
question” “[t]o the extent Plaintiffs simply disagree with
the policy choice made by the California legislature
pursuant to Article II, section 1 of the Constitution and
ask this Court to impose a different choice” and “limit
the States’ roles as politically sovereign entities in the
selection of presidential electors.” The Supreme Court,
5. See also Gray, 372 U.S. at 380; Pelosi, 2008 U.S. Dist. LEXIS
87447, 2008 WL 4755414, at *2; Trinsey, 2000 U.S. Dist. LEXIS
18387, 2000 WL 1871697, at *2.

36a
Appendix B
however, rejected a similar contention in McPherson. See
McPherson, 146 U.S. at 23; see also Rhodes, 393 U.S. at 28.
Therefore, the Court the Court denies Defendants’
Motion to Dismiss pursuant to Rule 12(b)(1).
IV. CONCLUSION
Accordingly, the Court GRANTS Defendants’ Motion
To Dismiss the Complaint for failure to state a claim
pursuant to Rule (12)(b)(6), and dismisses the Complaint
with prejudice.6
IT IS SO ORDERED.
DATED: September 21, 2018.
/s/ Consuelo B. Marshall
CONSUELO B. MARSHALL
UNITED STATES DISTRICT
JUDGE

6. Because Plaintiffs’ claims fail as a matter of law, amendment
would be futile.

37a
Appendix CCONSTITUTIONAL
APPENDIX C — RELEVANT
AND STATUTORY PROVISIONS
U.S.C.A. Const. Art. II-Full Text
ARTICLE II. THE PRESIDENT
Section 1. The executive Power shall be vested in a
President of the United States of America. He shall hold
his Office during the Term of four Years, and, together
with the Vice President, chosen for the same Term, be
elected, as follows:
Each State shall appoint, in such Manner as the Legislature
thereof may direct, a Number of Electors, equal to the
whole Number of Senators and Representatives to which
the State may be entitled in the Congress: but no Senator
or Representative, or Person holding an Office of Trust
or Profit under the United States, shall be appointed an
Elector.
[The Electors shall meet in their respective States, and
vote by Ballot for two Persons, of whom one at least shall
not be an Inhabitant of the same State with themselves.
And they shall make a List of all the Persons voted for,
and of the Number of Votes for each; which List they shall
sign and certify, and transmit sealed to the Seat of the
Government of the United States, directed to the President
of the Senate. The President of the Senate shall, in the
Presence of the Senate and House of Representatives,
open all the Certificates, and the Votes shall then be
counted. The Person having the greatest Number of Votes
shall be the President, if such Number be a Majority of
the whole Number of Electors appointed; and if there be
more than one who have such Majority, and have an equal

38a
Appendix C
Number of Votes, then the House of Representatives shall
immediately chuse by Ballot one of them for President; and
if no Person have a Majority, then from the five highest
on the List the said House shall in like Manner chuse the
President. But in chusing the President, the Votes shall
be taken by States, the Representation from each State
having one Vote; A quorum for this Purpose shall consist
of a Member or Members from two thirds of the States,
and a Majority of all the States shall be necessary to a
Choice. In every Case, after the Choice of the President,
the Person having the greatest Number of Votes of the
Electors shall be the Vice President. But if there should
remain two or more who have equal Votes, the Senate shall
chuse from them by Ballot the Vice President.]1
The Congress may determine the Time of chusing the
Electors, and the Day on which they shall give their Votes;
which Day shall be the same throughout the United States.
No Person except a natural born Citizen, or a Citizen
of the United States, at the time of the Adoption of this
Constitution, shall be eligible to the Office of President;
neither shall any Person be eligible to that Office who
shall not have attained to the Age of thirty five Years, and
been fourteen Years a Resident within the United States.
In Case of the Removal of the President from Office,
or of his Death, Resignation, or Inability to discharge
the Powers and Duties of the said Office, the same shall
devolve on the Vice President, and the Congress may by
Law provide for the Case of Removal, Death, Resignation
1. The clause enclosed in brackets was superseded by the
Twelfth Amendment.

39a
Appendix C
or Inability, both of the President and Vice President,
declaring what Officer shall then act as resident, and
such Officer shall act accordingly, until the Disability be
removed, or a President shall be elected.
The President shall, at stated Times, receive for his
Ser vices, a Compensation, which shall neither be
encreased nor diminished during the Period for which he
shall have been elected, and he shall not receive within
that Period any other Emolument from the United States,
or any of them.
Before he enter on the Execution of his Office, he shall
take the following Oath or Affirmation:--“I do solemnly
swear (or affirm) that I will faithfully execute the Office
of President of the United States, and will to the best of
my Ability, preserve, protect and defend the Constitution
of the United States.”
Section 2. The President shall be Commander in Chief
of the Army and Navy of the United States, and of the
Militia of the several States, when called into the actual
Service of the United States; he may require the Opinion,
in writing, of the principal Officer in each of the executive
Departments, upon any Subject relating to the Duties of
their respective Offices, and he shall have Power to grant
Reprieves and Pardons for Offences against the United
States, except in Cases of Impeachment.
He shall have Power, by and with the Advice and Consent
of the Senate, to make Treaties, provided two thirds of
the Senators present concur; and he shall nominate, and
by and with the Advice and Consent of the Senate, shall

40a
Appendix C
appoint Ambassadors, other public Ministers and Consuls,
Judges of the supreme Court, and all other Officers of
the United States, whose Appointments are not herein
otherwise provided for, and which shall be established by
Law: but the Congress may by Law vest the Appointment
of such inferior Officers, as they think proper, in the
President alone, in the Courts of Law, or in the Heads of
Departments.
The President shall have Power to fill up all Vacancies
that may happen during the Recess of the Senate, by
granting Commissions which shall expire at the End of
their next Session.
Section 3. He shall from time to time give to the Congress
Information of the State of the Union, and recommend
to their Consideration such Measures as he shall judge
necessary and expedient; he may, on extraordinary
Occasions, convene both Houses, or either of them, and in
Case of Disagreement between them, with Respect to the
Time of Adjournment, he may adjourn them to such Time
as he shall think proper; he shall receive Ambassadors
and other public Ministers; he shall take Care that the
Laws be faithfully executed, and shall Commission all the
Officers of the United States.
Section 4. The President, Vice President and all civil
Officers of the United States, shall be removed from Office
on Impeachment for, and Conviction of, Treason, Bribery,
or other high Crimes and Misdemeanors.

41a
Appendix C
U.S.C.A. Const. Amend. XII
Amendment XII. Presidential Electors
The Electors shall meet in their respective states and vote
by ballot for President and Vice-President, one of whom,
at least, shall not be an inhabitant of the same state with
themselves; they shall name in their ballots the person
voted for as President, and in distinct ballots the person
voted for as Vice-President, and they shall make distinct
lists of all persons voted for as President, and of all persons
voted for as Vice-President, and of the number of votes for
each, which lists they shall sign and certify, and transmit
sealed to the seat of the government of the United States,
directed to the President of the Senate;--The President of
the Senate shall, in the presence of the Senate and House
of Representatives, open all the certificates and the votes
shall then be counted;--The person having the greatest
number of votes for President, shall be the President, if
such number be a majority of the whole number of Electors
appointed; and if no person have such majority, then from
the persons having the highest numbers not exceeding
three on the list of those voted for as President, the House
of Representatives shall choose immediately, by ballot,
the President. But in choosing the President, the votes
shall be taken by states, the representation from each
state having one vote; a quorum for this purpose shall
consist of a member or members from two-thirds of the
states, and a majority of all the states shall be necessary
to a choice. And if the House of Representatives shall
not choose a President whenever the right of choice shall
devolve upon them, before the fourth day of March next

42a
Appendix C
following, then the Vice-President shall act as President,
as in the case of the death or other constitutional disability
of the President.--The person having the greatest number
of votes as Vice-President, shall be the Vice-President,
if such number be a majority of the whole number of
Electors appointed, and if no person have a majority, then
from the two highest numbers on the list, the Senate shall
choose the Vice-President; a quorum for the purpose shall
consist of two-thirds of the whole number of Senators,
and a majority of the whole number shall be necessary
to a choice. But no person constitutionally ineligible to
the office of President shall be eligible to that of VicePresident of the United States.
West’s Ann.Cal.Elec.Code § 6900
§ 6900. “Elector” or “presidential elector”
The term “elector” or “presidential elector” as used in this
chapter means an elector of President and Vice President
of the United States, and not an elector as defined in
Section 321.
West’s Ann.Cal.Elec.Code § 6901
§ 6901. Notice of nomination by party as candidate
for elector; placement of names on ballot
Whenever a political party, in accordance with Section
6864, 7100, 7300, 7578, or 7843, submits to the Secretary of
State its certified list of nominees for electors of President
and Vice President of the United States, the Secretary

43a
Appendix C
of State shall notify each candidate for elector of his or
her nomination by the party. The Secretary of State shall
cause the names of the candidates for President and Vice
President of the several political parties to be placed upon
the ballot for the ensuing general election.
West’s Ann.Cal.Elec.Code § 6902
§ 6902. Time of election
At the general election in each leap year, or at any other
time as may be prescribed by the laws of the United
States, there shall be chosen by the voters of the state
as many electors of President and Vice President of the
United States as the state is then entitled to.
West’s Ann.Cal.Elec.Code § 6903
§ 6903. Duties of Governor
On or before the day of meeting of the electors, the
Governor shall deliver to the electors a list of the names
of electors, and he or she shall perform any other duties
relating to presidential electors which are required of him
or her by the laws of the United States.
West’s Ann.Cal.Elec.Code § 6904
§ 6904. Meeting of electors
The electors chosen shall assemble at the State Capitol
at 2 o’clock in the afternoon on the first Monday after

44a
Appendix C
the second Wednesday in December next following their
election.
West’s Ann.Cal.Elec.Code § 6905
§ 6905. Vacancies
In case of the death or absence of any elector chosen, or
if the number of electors is deficient for any other reason,
the electors then present shall elect, from the citizens of
the state, as many persons as will supply the deficiency.
West’s Ann.Cal.Elec.Code § 6906
§ 6906. Vote for candidates
The electors, when convened, if both candidates are alive,
shall vote by ballot for that person for President and that
person for Vice President of the United States, who are,
respectively, the candidates of the political party which
they represent, one of whom, at least, is not an inhabitant
of this state.
West’s Ann.Cal.Elec.Code § 6907
§ 6907. Ballots
The electors shall name in their ballots the person voted
for as President, and in separate ballots the person voted
for as Vice President.

45a
Appendix C
West’s Ann.Cal.Elec.Code § 6908
§ 6908. Certification of vote
The electors shall make separate lists of all persons
voted for as President and of all persons voted for as Vice
President, and of the number of votes for each, which lists
they shall sign, certify, seal, and transmit by mail to the
seat of the Government of the United States, directed to
the President of the Senate.
West’s Ann.Cal.Elec.Code § 6909
§ 6909. Compensation; mileage
Each presidential elector shall receive ten dollars ($10) for
his or her services, and mileage at the rate of five cents
($0.05) per mile for each mile of travel from his or her
domicile to the State Capitol and return.
Their accounts therefor shall be certified by the Secretary
of State, and audited by the Controller, who shall draw his
or her warrants for the same on the Treasurer, payable
out of the General Fund.
West’s Ann.Cal.Elec.Code § 15400
§ 15400. Declaration of results
The governing body shall declare elected or nominated to
each office voted on at each election under its jurisdiction
the person having the highest number of votes for

46a
Appendix C
that office, or who was elected or nominated under the
exceptions noted in Section 15452. The governing board
shall also declare the results of each election under its
jurisdiction as to each measure voted on at the election.
West’s Ann.Cal.Elec.Code § 15452
§ 15452. Plurality of votes elects or nominates;
exceptions
The person who receives a plurality of the votes cast for
any office is elected or nominated to that office in any
election, except:
(a) An election for which different provision is made by
any city or county charter.
(b) A municipal election for which different provision is
made by the laws under which the city is organized.
(c) The election of local officials in primary elections as
specified in Article 8 (commencing with Section 8140) of
Part 1 of Division 8.
(d) The nomination of candidates for voter-nominated
office at the primary election to participate in the general
election for that office as specified in Article 8 (commencing
with Section 8140) of Part 1 of Division 8.

47a
Appendix C
West’s Ann.Cal.Elec.Code § 15505
§ 15505. Presidential electors; certificate of election;
notifications
No later than the 32nd day following the election, the
Secretary of State shall analyze the votes given for
presidential electors, and certify to the Governor the
names of the proper number of persons having the highest
number of votes. The Secretary of State shall thereupon
issue and transmit to each presidential elector a certificate
of election. The certificate shall be accompanied by a notice
of the time and place of the meeting of the presidential
electors and a statement that each presidential elector
will be entitled to a per diem allowance and mileage in
the amounts specified.

